      Semiannual
        Report to
        Congress
April 1, 2012–September 30, 2012
                    OIG-CA-13-003


       Office of Inspector General
      Department of the Treasury
Highlights
During this semiannual reporting period, our Office of Audit issued 33 products and our Office of Small
Business Lending Fund Program Oversight issued 4. Work by our Office of Investigations resulted in 12
arrests and 15 convictions. Some of our more significant results for the period are described below.
• We audited Treasury’s role in the $535 million loan guarantee made to Solyndra in 2009. We found
   Treasury performed a consultation on the terms and conditions of the Solyndra loan guarantee as
   derived from law and regulation implementing the Department of Energy’s Loan Guarantee Program.
   However, whether that consultation met the intent of the applicable law and regulation is not clear
   because Treasury’s consultative role was not sufficiently defined. The consultation that did occur was
   rushed, and no documentation was retained as to how Treasury’s serious concerns with the loan
   guarantee were addressed.
• We reported that the Office of the Comptroller of the Currency’s examination procedures during the
   period 2008 through 2010 were not sufficient in scope or application to identify significant weaknesses
   in national banks’ foreclosure documentation and processing functions. The office did not consider
   foreclosure documentation and processing to be an area of significant risk and, as a result, did not focus
   examination resources on this function.
• Our Office of Small Business Lending Fund Program Oversight reported that most of the $3.6 million
   spent by California for the State Small Business Credit Initiative was used properly. However, $133,000
   in loan loss reserves funded under California’s Small Business Loan Guarantee Program did not meet
   requirements. The expenditures constituted a “reckless” misuse of funds, which under the Small
   Business Jobs Act, Treasury must recoup. California also reported $161,000 in administrative expenses
   that appeared reasonable but were not supported by proper documentation.
• With respect to the $30 billion Small Business Lending Fund, we determined that 8 out of 10
   institutions we sampled incorrectly reported qualified lending gains associated with their small business
   lending activity. The institutions’ errors totaled $74 million, most of which was attributed to one bank
   over-reporting its baseline by $48 million, or 43 percent.
• We investigated a senior official based on an allegation of time and attendance fraud and determined the
   official owed the Bureau of the Public Debt over 1,200 hours between 2009 to 2012, or approximately
   $97,800 in salary. The case was referred to bureau management for administrative action.
• A former bank president was sentenced in the U.S. District Court in Aberdeen, Mississippi, to 63
   months of imprisonment and ordered to pay a $100 special assessment and $1.5 million in restitution for
   diverting funds to pay personal bills. The former bank president also subverted the Office of the
   Comptroller of the Currency’s examination process by concealing the true identity of borrowers on
   several loans and concealing the condition of the loans which led to the failure of First National Bank of
   Rosedale.




       Treasury Office of Inspector General Semiannual Report—September 2012                          i
Message From the Inspector General
I am pleased to provide our Semiannual Report for the 6 months ending September 30, 2012. As our
mandated work related to bank failures has decreased, we have been able to redirect resources to audit
work in Treasury’s activities intended to support economic recovery as well as audit work designed to
address areas of current and emerging risks as they related to Treasury programs and operations.

For example, we reviewed Treasury’s consultative role regarding the $535 million loan guarantee made
to Solyndra, where we found that Treasury did consult on the loan as was required by law. However, we
also found that Treasury’s consultative role was poorly defined and that important issues seemed to be
unresolved at the time the loan guarantee was approved. Accordingly, we recommended that Treasury
work with the Department of Energy to clearly define what is expected in Treasury’s consultation and
provide Treasury adequate time to carry out its consultative processes.

Other notable audit work includes 5 audit reports related to oversight of Treasury’s spending authority
under the Recovery Act. We also, at the request of the Chairman of the Senate Committee on Banking,
Housing and Urban Affairs, reviewed the Office of the Comptroller of the Currency’s community bank
examination and appeals process. Additionally, we responded to an inquiry by the Ranking Member of
the Senate Finance Committee on the debt limit crisis of July and August 2011.

Our Office of Small Business Lending Fund Program Oversight completed two reviews addressing the
soundness of early investment decisions and the calculation of the program’s initial dividend rate. We
found that 80 percent of the institutions sampled incorrectly reported qualified lending gains. As a
result, the Treasury’s October 26, 2011, Use of Funds report, over-reported lending increases for some
institutions and under-reported for others. If not corrected, these errors will continue in subsequent
reports. I noted in previous Semiannual Reports that the Office of Small Business Lending Fund
Program Oversight was auditing the use of federal funds provided to states by the $1.5 billion State
Small Business Credit Initiative to support lending to small businesses. Our reviews have identified
misused funds that Treasury must recoup and recommended the disallowance of administrative
expenses that were not properly supported.

The Council of Inspectors General on Financial Oversight (CIGFO), which I chair, convened its first
working group under the leadership of the Federal Deposit Insurance Corporation’s Inspector General,
Jon Rymer. I am pleased to note that the working group issued its report, Audit of the Financial Stability
Oversight Council’s Controls over Non-public Information, in June of this year. The report identified differences
in how the federal agency members of the Financial Stability Oversight Council, and the Council itself,
control non-public information. The CIGFO report acknowledged that the Financial Stability Oversight
Council is evolving and some information-sharing projects are under development. CIGFO encouraged
the Council to further examine the issues raised in the report.

The Office of Investigations continues to transition to significant criminal, civil, and administrative cases
that pose risk of fraud, waste, and abuse in the Department’s programs and operations. Our

        Treasury Office of Inspector General Semiannual Report—September 2012                                ii
                                                              Message From the Inspector General

investigations have led to a number of prosecutions, convictions, and restitutions. Recent investigative
work ranged from cases involving embezzlement, theft, and tax evasion, to seizure of millions of dollars
of mutilated currency. Collaborative efforts by our investigators with other agencies have resulted in, for
example, a former bank president pleading guilty to embezzlement; the sentencing in this case included
over $1.5 million in restitution. Another collaboration involved embezzlement from TreasuryDirect
accounts and Orange County, Florida, businesses.

At the suggestion of Senator Tester, and encouraged by the example of the Department of Justice
Office of Inspector General, my office took steps to implement a Whistleblower Ombudsman Initiative,
by which Treasury employees will have a central point of contact within the office to learn of their rights
and obligations under the Whistleblower Protection Act. This initiative will enable my office to better
coordinate with the Office of Special Counsel. We now plan to engage in outreach to Treasury bureaus
and offices.

At the request of Chairwoman Emerson of the Financial Services and General Government
Subcommittee of the House Committee on Appropriations, we conducted an inquiry regarding the
Department’s July 16, 2012, website posting entitled “Penny Wise and Pound Foolish,” where the
Department expressed its views on funding levels for two non-Treasury agencies, the Securities and
Exchange Commission and the Commodity Futures Trading Commission. Ms. Emerson asked us to
look at whether the Department’s outreach may have violated statutory prohibitions and limitations on
using appropriated funds to lobby Congress and otherwise advocate for legislative action. We reviewed
the statutory provisions, as well as analyses and interpretations of them, and interviewed Departmental
officials with knowledge of and responsibility for the posting, and adherence to the legal constraints. We
concluded that the outreach at issue did not violate the applicable law. Additionally, we determined that
there is a legal review process in place to ensure that public outreach efforts do not violate the anti-
lobbying laws.

In closing, I would like to express my appreciation for the continued support and responsiveness of
Treasury’s senior leadership to our oversight findings and recommendations. I would also like to
acknowledge the employees of Treasury’s Office of Inspector General for their diligence, dedication,
and professionalism. They are integral in helping Treasury meet its mission.



Eric M. Thorson
Inspector General




       Treasury Office of Inspector General Semiannual Report—September 2012                           iii
Contents
Highlights ...................................................................................................................................i
Message From the Inspector General .....................................................................................ii
Office of Inspector General Overview .....................................................................................1
Treasury’s Management and Performance Challenges .........................................................2
Office of Audit – Significant Audits and Other Products .......................................................7
      Products Supporting the Council of Inspectors General on Financial Oversight ..........................................7
      Performance Audits of Treasury Programs and Operations.........................................................................9
      Financial Management Audits ....................................................................................................................18
Office of SBLF Program Oversight – Significant Products .................................................22
      State Small Business Credit Initiative.........................................................................................................22
      Small Business Lending Fund....................................................................................................................23
Office of Investigations – Initiatives and Significant Investigations...................................25
Other OIG Accomplishments and Activity ............................................................................29
Statistical Summary ...............................................................................................................31
      Summary of OIG Activity ............................................................................................................................31
      Significant Unimplemented Recommendations ..........................................................................................32
      Summary of Instances Where Information Was Refused...........................................................................33
      Listing of Audit Products Issued .................................................................................................................34
      Audit Reports Issued With Questioned Costs ............................................................................................37
      Audit Reports Issued With Recommendations That Funds Be Put to Better Use ......................................37
      Previously Issued Audit Reports Pending Management Decisions (Over 6 Months) .................................38
      Significant Revised Management Decisions ..............................................................................................38
      Significant Disagreed Management Decisions ...........................................................................................38
      Peer Reviews .............................................................................................................................................38
Bank Failures and Nonmaterial Loss Reviews .....................................................................40
References to the Inspector General Act ..............................................................................42
Abbreviations..........................................................................................................................43




             Treasury Office of Inspector General Semiannual Report—September 2012                                                                             iv
This page intentionally left blank.
Office of Inspector General                           The Office of Investigations, under the
                                                      leadership of the Assistant Inspector General
Overview                                              for Investigations, performs investigations and
                                                      conducts initiatives to detect and prevent fraud,
The Department of the Treasury’s Office of            waste, and abuse in Treasury programs and
Inspector General (OIG) was established               operations under our jurisdiction. It also
pursuant to the 1988 amendments to the                manages the Treasury OIG Hotline to facilitate
Inspector General Act of 1978. OIG is headed          reporting of allegations involving Treasury
by an Inspector General appointed by the              programs and activities.
President, with the advice and consent of the
Senate.                                               The Office of SBLF Program Oversight, under
                                                      the leadership of a Special Deputy Inspector
OIG performs independent, objective reviews           General, conducts, supervises, and coordinates
of Treasury programs and operations, except           audits and investigations of SBLF and the State
for those of the Internal Revenue Service (IRS)       Small Business Credit Initiative (SSBCI).
and the Troubled Asset Relief Program (TARP),
and keeps the Secretary of the Treasury and           The Office of Counsel, under the leadership of
Congress fully informed of problems,                  the Counsel to the Inspector General, provides
deficiencies, and the need for corrective action.     legal advice to the Inspector General and all
The Treasury Inspector General for Tax                OIG components. The office represents the
Administration performs oversight related to          OIG in administrative legal proceedings and
IRS. A Special Inspector General and the              provides a variety of legal services including
Government Accountability Office perform              (1) processing Freedom of Information Act and
oversight related to TARP.                            Giglio requests; (2) conducting ethics training;
                                                      (3) ensuring compliance with financial
OIG has five components: (1) Office of Audit,         disclosure requirements; (4) reviewing proposed
(2) Office of Investigations, (3) Office of Small     legislation and regulations; (5) reviewing
Business Lending Fund (SBLF) Program                  administrative subpoena requests; and
Oversight, (4) Office of Counsel, and (5) Office      (6) preparing for the Inspector General’s
of Management. OIG is headquartered in                signature, cease and desist letters to be sent to
Washington, D.C., and has an audit office in          persons and entities misusing the Treasury seal
Boston, Massachusetts.                                and name.

The Office of Audit, under the leadership of the      The Office of Management, under the
Assistant Inspector General for Audit, performs       leadership of the Assistant Inspector General
and supervises audits, attestation engagements,       for Management, provides services to maintain
and evaluations. The Assistant Inspector              the OIG administrative infrastructure.
General for Audit has two deputies. One is
primarily responsible for performance audits,         As of September 30, 2012, OIG had 173 full-
and the other is primarily responsible for            time staff. Fifteen of those staff work for the
financial management, information technology          Office of SBLF Program Oversight and are
(IT), and financial assistance audits.                funded on a reimbursable basis. OIG’s fiscal
                                                      year 2012 appropriation is $29.6 million.

          Treasury Office of Inspector General Semiannual Report—September 2012                         1
Treasury’s Management and                              address reform of the housing finance market,
                                                       and (4) ensure implementation and coordination
Performance Challenges                                 on financial regulatory reform. FSOC also
                                                       designated eight financial market utilities as
In accordance with the Reports Consolidation           systemically important. That said, FSOC still has
Act of 2000, the Treasury Inspector General            work ahead to meet all of its responsibilities.
annually provides the Secretary of the Treasury        For example, it remains in the process of
with our perspective on the most serious               designating the first group of nonbank financial
management and performance challenges facing           institutions for consolidated supervision.
the Department of the Treasury. In a
memorandum to Secretary Geithner dated                 The Council of Inspectors General on Financial
October 25, 2012, Inspector General Thorson            Oversight (CIGFO), chaired by the Treasury
reported one new challenge—Gulf Coast                  Inspector General, also established by Dodd-
Restoration Trust Fund Administration—and              Frank, is an important source of independent
three challenges from last year. One previously        analysis to FSOC. Among its activities, CIGFO
reported challenge was removed. The following          established its first working group to evaluate
is an abridged version of that memorandum.             FSOC controls over non-public information
                                                       and the manner in which FSOC, as a whole,
Transformation of Financial Regulation                 safeguarded information from unauthorized
                                                       sources. The resulting report highlighted several
(Repeat Challenge)                                     areas for FSOC’s consideration. CIGFO will
The Dodd-Frank Wall Street Reform and                  continue reviewing FSOC’s compliance with the
Consumer Protection Act (Dodd-Frank)                   requirements of Dodd-Frank.
established new responsibilities for Treasury
and created new offices tasked to fulfill those        Dodd-Frank also established two new offices
responsibilities.                                      within Treasury: the Office of Financial
                                                       Research (OFR) and the Federal Insurance
For example, Dodd-Frank established the                Office (FIO). OFR is the data collection,
Financial Stability Oversight Council (FSOC),          research and analysis arm of FSOC. We
chaired by the Secretary of the Treasury, whose        completed a review of the stand-up of OFR and
mission is to identify risks to financial stability    reported that in the 21 months since OFR was
that could arise from the activities of large,         created, efforts to establish the office were still
interconnected financial companies; respond to         in progress. FIO is charged with monitoring the
any emerging threats to the financial system;          insurance industry. We are currently reviewing
and promote market discipline. FSOC                    the stand-up of FIO.
accomplished a number of things over the past
year. As required, FSOC also issued its second         The other regulatory challenges that we
annual report. The report contained                    discussed last year remain. Specifically, since
recommendations to (1) further reforms to              September 2007, 126 Treasury-regulated
address structural vulnerabilities in key markets,     financial institutions have failed, with estimated
(2) heighten risk management and supervisory           losses to the Deposit Insurance Fund (DIF) of
attention in specific areas, (3) take steps to         approximately $35.3 billion. With more than
                                                       450 banks on the Federal Deposit Insurance

           Treasury Office of Inspector General Semiannual Report—September 2012                         2
                                            Treasury’s Management and Performance Challenges

Corporation’s (FDIC) troubled bank list, we            country. Institutions receiving investments
anticipate bank failures to continue into the          under the SBLF program pay dividends to
foreseeable future but at a lower rate than in         Treasury at rates that decrease as the institutions
recent years.                                          increase their qualified lending activity. Treasury
                                                       faces challenges in measuring program
Clearly, as we have said in the past, the              performance and ensuring that the SBLF
intention of Dodd-Frank is most notably to             program meets its intended objective of
prevent, or at least minimize, the impact of a         increasing lending to small businesses. As of
future financial sector crisis on the U.S.             September 2012, 56 states, territories, and
economy. This management challenge from our            eligible municipalities had been awarded
perspective is to maintain an effective FSOC           $1.4 billion in SSBCI funding. Funds awarded
process and build a streamlined banking                are disbursed in one-third increments. To date,
regulatory structure that timely identifies and        Treasury disbursed $533 million of the award.
strongly responds to emerging risks.                   We audit participating states to determine
                                                       whether SSBCI funds are being used as
Management of Treasury’s Authorities                   intended. In this regard, Treasury is required to
                                                       recoup funds we identify as having been
Intended to Support and Improve the
                                                       recklessly or intentionally misused, and Treasury
Economy (Repeat Challenge)                             may withhold disbursements from a state based
                                                       on the audit results. We noted several challenges
Congress provided Treasury with broad
                                                       facing Treasury in holding states accountable
authorities to address the recent financial crisis
                                                       for the proper use of funds.
under the Housing and Economic Recovery Act
(HERA) and the Emergency Economic
                                                       Recovery Act Programs
Stabilization Act (EESA), the American
Recovery and Reinvestment Act (Recovery                Treasury is responsible for overseeing an
Act), and the Small Business Jobs Act. Although        estimated $150 billion of Recovery Act funding
challenges remain, Treasury’s program                  and tax relief. Treasury’s oversight
administration under HERA, EESA, and the               responsibilities include programs that provide
Recovery Act has matured. However, the long-           payments for specified energy property in lieu
term impact on small business lending resulting        of tax credits, payments to states for low-
from investment decisions under the Small              income housing projects in lieu of tax credits,
Business Jobs Act programs are not yet entirely        and grants and tax credits through the
clear.                                                 Community Development Financial Institutions
                                                       (CDFI) Fund. About $20 billion of the $22
SBLF and SSBCI                                         billion provided for non-IRS programs has been
                                                       disbursed to recipients under Treasury’s
The Small Business Jobs Act created the
                                                       payments in lieu of tax credit programs. To
$30 billion SBLF within Treasury and provided
                                                       date, all funds have been disbursed under the
$1.5 billion to Treasury to allocate to eligible
                                                       low-income housing program and the specified
state programs through SSBCI. As of
                                                       energy property program is winding down.
September 2011, Treasury disbursed more than
                                                       Treasury must continue to ensure recipient
$4 billion to 332 financial institutions across the


           Treasury Office of Inspector General Semiannual Report—September 2012                        3
                                            Treasury’s Management and Performance Challenges

compliance with award agreements going                 organizations to fund their operations. This
forward.                                               office brings together intelligence gathering and
                                                       analysis, economic sanctions, international
HERA and EESA                                          cooperation, and private-sector cooperation to
                                                       identify donors, financiers, and facilitators
Under HERA, Treasury continued to support              supporting terrorist organizations, and disrupt
the financial solvency of the Federal National         their ability to fund them. Enhancing the
Mortgage Association (Fannie Mae) and the              transparency of the financial system is one of
Federal Home Loan Mortgage Corporation                 the cornerstones of this effort. Treasury carries
(Freddie Mac) which are under the                      out its responsibilities to enhance financial
conservatorship of the Federal Housing Finance         transparency through the Bank Secrecy Act
Agency. As of June 2012, Treasury invested a           (BSA) and USA Patriot Act. The Financial
total of $187 billion in the two entities to cover     Crimes Enforcement Network (FinCEN) is
their losses and maintain a positive net worth.        responsible for administering BSA.
Although Fannie Mae and Freddie Mac
reported a positive net worth in the first and         Over the past decade, the Office of Terrorism
second quarters of 2012, the future of both            and Financial Intelligence has made progress in
entities is still in question and prolonged            addressing vulnerabilities that allowed money
assistance may be required.                            launderers and terrorists to use the financial
                                                       system to support their activities. Nonetheless,
TARP, established by EESA, gave Treasury               significant challenges remain. One challenge is
authorities necessary to bolster credit availability   ensuring the continued cooperation and
and address other serious problems in the              coordination among the entities involved in
domestic and world financial markets. Through          anti-money laundering and combating terrorist
several of the TARP programs, Treasury made            financing efforts. Many of these entities also
purchases of direct loans and equity investments       participate in efforts to ensure compliance with
in many financial institutions and other               U.S. foreign sanction programs administered by
businesses, as well as guaranteed other troubled       Treasury’s Office of Foreign Assets Control
mortgage-related and financial assets. One             (OFAC). To be effective, Treasury must
Treasury challenge in this area is managing and        establish and maintain working relationships
winding down its various investment programs.          with these numerous entities.

Anti-Money Laundering and Terrorist                    Last year, financial institutions filed
Financing/Bank Secrecy Act                             approximately 17 million BSA reports, including
                                                       over 1.5 million suspicious activity reports.
Enforcement (Repeat Challenge)
                                                       While the number of suspicious activity reports
Ensuring criminals and terrorists do not use our       has been increasing since 2001, the numbers
financial networks to sustain their operations         alone do not necessarily indicate everything is
and/or launch attacks against the U.S. continues       going well. Audits we have done have found
to be a challenge. Treasury’s Office of                problems with the quality of the data reported.
Terrorism and Financial Intelligence is                Other audits have also identified gaps in the
dedicated to disrupting the ability of terrorist       regulatory examination programs of the bank


           Treasury Office of Inspector General Semiannual Report—September 2012                       4
                                           Treasury’s Management and Performance Challenges

regulators and examining agencies. FinCEN              Given the criticality of this management
needs to continue its efforts to work with             challenge to the Department’s mission, we
regulators and examining agencies to ensure            continue to consider anti-money laundering and
that financial institutions establish effective BSA    combating terrorist financing as inherently high-
compliance programs and file accurate and              risk.
complete BSA reports, as required.
Furthermore, FinCEN needs to complete work             Gulf Coast Restoration Trust Fund
to issue anti-money laundering regulations as it
                                                       Administration
determines appropriate for some non-bank
financial institutions, such as vehicle dealers;       In response to the Deepwater Horizon oil spill,
pawnbrokers; travel agents; finance companies;         Congress established within Treasury the Gulf
real estate closing and settlement services; and       Coast Restoration Trust Fund and requires
financial services intermediaries, such as             Treasury to deposit in the Trust Fund
investment advisors.                                   80 percent of administrative and civil penalties
                                                       paid by responsible parties for the Deepwater
We noted that FinCEN has a particularly                Horizon oil spill. It is estimated that the Trust
difficult challenge in dealing with money service      Fund could receive tens of billions of dollars
businesses. To that end, FinCEN has taken              from these penalties to be distributed for
steps to improve money service business                eligible activities affecting the Gulf Coast states
examination coverage and compliance.                   (Alabama, Florida, Louisiana, Mississippi, and
However, ensuring money service businesses             Texas). Treasury, in consultation with the
register with FinCEN has been a challenge.             Departments of the Interior and Commerce, is
Furthermore, IRS serves as the examining               required to develop policies and procedures to
agency, but has limited resources to inspect or        administer the Trust Fund by early January
even identify unregistered money service               2013. Congress also authorized our office to
businesses.                                            conduct, supervise, and coordinate audits and
                                                       investigations of projects, programs and
Other matters of concern include one that we           activities funded under this legislation. Neither
reported on previously. It is that the focus on        Treasury nor our office was provided funding in
safety and soundness resulting from the recent         the act for carrying out our respective
financial crisis may have reduced the attention        responsibilities.
financial institutions are giving to BSA and
OFAC compliance. Another concern is the                What makes the administration of the Trust
increasing use of mobile devices for banking,          Fund so challenging is that (1) regulations and
internet banking, internet gaming, and peer-to-        associated policies and procedures need to be
peer transactions. FinCEN, OFAC, and other             established and put into place quickly; (2) many
regulatory agencies will need to ensure that           of the entities/councils that are to receive and
providers of these services ensure transactions        further allocate funding were not created before
are transparent and conform to BSA                     the enactment of the legislation and need to
requirements.                                          establish their own policies and procedures; and
                                                       (3) there are many entities/councils that must
                                                       cooperate for the funds to be distributed and


           Treasury Office of Inspector General Semiannual Report—September 2012                        5
                                         Treasury’s Management and Performance Challenges

spent in an appropriate manner. Also, as noted,       We further noted that in October 2012, the
Treasury must use existing resources to               Department undertook a consolidation and
administer its responsibilities.                      restructuring of the Bureau of the Public Debt
                                                      (BPD) and Financial Management Service
Other Information Provided                            (FMS) into the Bureau of the Fiscal Service.
                                                      Expected to save substantial dollars in the long
In past memorandums, we included                      run, the initiative is laudable. Furthermore, early
Management of Capital Investments on the list         indications are that planning for the
of the most serious management and                    consolidation, as well as communication with
performance challenges. In this regard, we had        affected personnel, has been extensive.
reported on a number of capital investment            However, we made the observation such that
projects that either failed or had serious            consolidations do entail risk as separate
problems. However, we believe Treasury’s              processes, systems, and workplace cultures are
implementation activities for two capital             meshed together.
investments, Treasury Network (TNet) and
FinCEN’s BSA IT Modernization (BSA IT                 The Inspector General’s annual Management
Mod) program, while not perfect, demonstrated         and Performance Challenges Memoranda are
that the Department has made sufficient,              available on the Treasury OIG website.
sustainable improvement in managing and
mitigating investment risk to warrant removal of
this area from the list this year.

Our memorandum also highlighted three areas
of concern with cyber security, challenges with
currency and coin production, and lapses by the
Department in maintaining a complete and
concurrent record of key activities and
decisions.




          Treasury Office of Inspector General Semiannual Report—September 2012                         6
Office of Audit – Significant                         financial stability has begun, and the data
                                                      sharing will expand as OFR continues to build
Audits and Other Products                             its capacity. To protect the exchange of
                                                      information, FSOC members entered into a
                                                      memorandum of understanding governing the
Products Supporting the Council of                    treatment of non-public information that relies
Inspectors General on Financial                       on each agency to use the controls in place at
Oversight                                             their respective agencies. The working group
                                                      identified differences in how FSOC agency
                                                      members mark non-public information as well
Audit of the Financial Stability Oversight            as differences for handling non-public
Council’s Controls over Non-public Information        information. Without addressing these
                                                      differences, there is a risk that senders and
Dodd-Frank created, among other things, the           receivers of FSOC non-public information may
CIGFO. One of CIGFO’s statutory functions is          not apply a consistent level of controls.
to provide oversight of the FSOC. Specifically,
the law grants CIGFO the authority to convene         In its June 2012 report, the working group
a working group, by a majority vote, for the          acknowledged that FSOC is still evolving and a
purpose of evaluating the effectiveness and           number of information-sharing projects are
internal operations of FSOC. During fiscal year       under development. For this reason, the
2012, CIGFO convened a working group led by           working group has not made any
the FDIC Inspector General to examine                 recommendations, for now. However, the
FSOC’s controls and protocols for ensuring            working group encouraged FSOC to continue
that its non-public information, deliberations,       its ongoing efforts, to further examine the issues
and decisions are properly safeguarded from           raised in the report with respect to
unauthorized disclosure. Participating in the         commonalities and differences of member
working group were the OIGs of FDIC, Board            agencies, and to prepare for possible security
of Governors of the Federal Reserve System            upgrades for information that may need to be
(FRB) and Consumer Financial Protection               exchanged as economic conditions change and
Bureau, Commodity Futures Trading                     new threats to the stability of the U.S. financial
Commission, Treasury, Federal Housing                 system emerge.
Finance Agency, National Credit Union
Administration, and Securities and Exchange           Response to a Congressional Inquiry Related to
Commission. Work was conducted at OFR,                Raising the Debt Limit
FIO, and the Office of the Comptroller of the
Currency (OCC).                                       We responded to an October 2011 and January
                                                      2012 inquiry by the Ranking Member of the
FSOC acknowledges that its ability to safely          Senate Finance Committee on the debt limit
share information among its members is critical       crisis of late July/early August 2011. In that
to its effectiveness. To date, a limited amount of    inquiry, the Ranking Member asked CIGFO to
non-public information has been exchanged             review FSOC’s responses to inquiries that he
among FSOC members. Collaborations among              made regarding the debt limit. More specifically,
FSOC members to identify and mitigate risks to        the inquiry related to (1) Treasury’s cash

          Treasury Office of Inspector General Semiannual Report—September 2012                       7
                                          Office of Audit – Significant Audits and Other Products

projections during July and August, (2)                initially engaged in high-level strategic and
contingency plans developed by FSOC voting             organizational planning and sought to hire key
member agencies if the debt limit had not been         personnel. They also focused on developing and
raised or if there was a credit rating downgrade       facilitating the global acceptance of a universal
on the U.S., (3) FSOC’s compliance with                Legal Entity Identifier, 1 while leveraging
statutory requirements for identifying risks and       Treasury’s Departmental Offices to support
responding to emerging threats to financial            administrative functions. In the summer of
stability, and (4) FSOC’s reporting on systemic        2011, after key operational personnel were
risks surrounding the debt limit. As this was          brought on board, progress toward establishing
determined to be primarily a Treasury issue, we        a comprehensive implementation planning and
performed the work and prepared the response.          project management process accelerated. This
                                                       culminated in the approval of OFR’s Project
We reviewed Treasury’s daily cash balance              Management Methodology in January 2012,
projections as of July 21, 2011, for the period        OFR’s Strategic Framework in March 2012, and
July 28 to August 31, 2011. We noted that              OFR’s Strategic Roadmap in April 2012. While
absent an increase to the debt limit, our analysis     not finalized until well over a year after it was
of these projections showed that a sufficient          established, these documents and methodology,
cash balance would not be available to meet all        taken together, now provide OFR with a
incoming due obligations by August 11, 2011.           comprehensive implementation plan. This plan
Furthermore, the cash deficit would grow with          lays out the expected evolution of the office’s
each day that the debt limit was not raised.           capabilities, reaching a mature state by fiscal
                                                       year 2016.
We also determined that FSOC met its statutory
requirements under Dodd-Frank to identify,             Concurrent with the development of its
respond, and report on systemic risks and              comprehensive implementation plan, OFR also
emerging threats to the U.S. financial system.         began to develop its analytic and data support
According to the Treasury’s Deputy Assistant           for FSOC. Its Research and Analysis Center has
Secretary for the FSOC, individual FSOC                sponsored seminars and published two working
members recognized the fiscal policy challenge,        papers on risk assessment topics.
but there was no collective initiative by FSOC
to create an FSOC-directed and coordinated set         We recommended that OFR monitor its
of contingency plans had the debt limit not            progress in carrying out the activities in the
been raised. (OIG-CA-12-006)                           comprehensive implementation plan and take
                                                       actions timely to address any slippages or
Treasury Has Made Progress to Stand-up OFR             otherwise make adjustments so as to achieve the

Given the criticality of OFR to FSOC’s mission,
                                                       1 Legal Entity Identifier is being developed as the
we initiated an audit to evaluate the
                                                       universal standard for identifying all parties to financial
effectiveness and status of Treasury’s process to      contracts. It is a key element in OFR’s effort to
establish OFR. We reported that as of April            understand and monitor risks to financial stability and
2012, 21 months after OFR was created, efforts         meet its statutory mandate to develop and promote data
                                                       standards.
to establish the office were still in progress. The
officials responsible for establishing the office

           Treasury Office of Inspector General Semiannual Report—September 2012                                     8
                                          Office of Audit – Significant Audits and Other Products

objectives and timeframes in the plan. The             no documentation was retained as to how
office's planned corrective action was                 Treasury’s serious concerns with the loan were
responsive to our recommendation.                      addressed.
(OIG-12-057)
                                                       Treasury management generally agreed with our
                                                       recommendations to (1) work with the
Performance Audits of Treasury                         Department of Energy to establish a definition
Programs and Operations                                of what Treasury’s consultative role is and what
                                                       it should include; (2) work with the Department
                                                       of Energy to establish a common understanding
Consultation on Solyndra Loan Guarantee Was            of what would be considered a deviation that
Rushed                                                 constitutes a substantial change in the financial
                                                       terms and conditions of a loan guarantee and
Due to heightened media attention and                  require Treasury’s consultation; and (3) develop
congressional inquiry surrounding the                  and implement written policies and procedures
bankruptcy of Solyndra LLC (Solyndra), we              to govern Treasury’s consultative process.
initiated an audit of Treasury’s role in the           However, Treasury did not agree with a
$535 million loan guarantee made to the                statement in our report that Treasury’s
                                                       consultation should broadly reflect “…its
company in 2009. This loan was 100 percent
                                                       perspective on the amount to be guaranteed, reasonable
guaranteed by the Department of Energy and             prospect of repayment, interest rate, remedies for default,
funded by Treasury’s Federal Financing Bank.           fees charged to the applicant, and the full faith and credit
Our audit objectives were to (1) determine             pledge of the United States.” In this regard, Treasury
Treasury’s responsibilities related to the             believes that some of these matters relate to an
Department of Energy’s loan guarantee for              applicant’s creditworthiness which is an issue
Solyndra as established by applicable laws,            that Congress placed solely within the
regulations, policies, procedures, and                 Department of Energy’s purview under the Act,
agreements and (2) assess whether Treasury             and that Treasury’s input is limited to the
appropriately carried out those responsibilities.      interest rate and other terms and conditions of
                                                       the potential loan guarantee. In our evaluation
                                                       of Treasury’s response, however, we noted that
Treasury ’s consultative role as it related to the     as provided in section 1702 of the Act, the
Solyndra loan guarantee is derived from (1) Title      Secretary of the Treasury provides consultation
XVII of the Energy Policy Act of 2005, as              on a number of terms and conditions, such as
amended by the Recovery Act; (2) the Federal           the specific appropriation or contribution,
Financing Bank Act; and (3) 10 CFR §609 (Final         amount, repayment, interest rate, term, defaults,
Rule implementing Title XVII of the Act).              fees, records and audits, and full faith and
                                                       credit. (OIG-12-048)
We found that Treasury did perform a
consultation on the terms and conditions of the        Failed Bank Reviews
Solyndra loan guarantee. However, whether that
consultation met the intent of the applicable law      In 1991, Congress enacted the Federal Deposit
and regulation is not clear because Treasury’s         Insurance Corporation Improvement Act
consultative role was not sufficiently defined.        following the failures of about a thousand banks
The consultation that did occur was rushed, and        and thrifts from 1986 to 1990. Among other
                                                       things, the act added Section 38, Prompt

          Treasury Office of Inspector General Semiannual Report—September 2012                                  9
                                                 Office of Audit – Significant Audits and Other Products

Corrective Action, to the Federal Deposit                     applies to bank failures from October 1, 2009,
Insurance Act (FDIA). Section 38 requires                     forward. 4
federal banking agencies to take specific
supervisory actions in response to certain                    From the beginning of the recent economic
circumstances. 2                                              crisis in 2007 through September 2012, FDIC
                                                              and other banking regulators closed 458 banks
Section 38 also requires the Inspector General                and thrifts. Treasury, through OCC and the
for the primary federal regulator 3 of a failed               former Office of Thrift Supervision (OTS), was
financial institution to conduct a material loss              responsible for regulating 126 of those
review (MLR) when the estimated loss to the                   institutions. Of the 126 failures, 54 resulted in a
DIF is “material.” An MLR requires that we                    material loss to the DIF. There were no new
determine the causes of the failure and assess                failures of Treasury-regulated banks that
the supervision of the institution, including the             required an MLR during this semiannual
implementation of the Section 38 Prompt                       reporting period. During this period, we
Corrective Action provisions. Section 38, as                  completed 1 MLR from the prior reporting
amended by Dodd-Frank, defines a material                     period and 1 in-depth review. Since 2007, we
loss as a loss to the DIF that exceeds                        have completed 54 MLRs and 3 in-depth
$150 million for 2012 and 2013, and $50 million               reviews.
in 2014 and thereafter, with a provision for
increasing the threshold to $75 million under                 As previously reported, from the MLRs we have
certain circumstances. Section 38 also requires a             completed, we have seen a number of trends
review of all bank failures with losses under                 emerge. With respect to the causes of these
those threshold amounts for the purposes of                   institutions’ failures, we found significant losses
(1) ascertaining the grounds identified by OCC                in loan portfolios, poor underwriting and overly
for appointing FDIC as receiver, and                          aggressive growth strategies fueled by volatile
(2) determining whether any unusual                           and costly wholesale funding (e.g., brokered
circumstances exist that might warrant a more                 deposits, Federal Home Loan Bank loans); risky
in-depth review of the loss. This provision                   lending products such as option adjustable rate
                                                              mortgages; high asset concentrations; and
                                                              inadequate risk management systems. In
2 Prompt corrective action is a framework of supervisory
                                                              addition, the management and boards of these
actions for insured institutions that are not adequately      institutions were often ineffective. The
capitalized. It was intended to ensure that action is taken   economic recession and the decline in the real
when an institution becomes financially troubled in order
                                                              estate market were also factors in most of the
to prevent a failure or minimize resulting losses. These
actions become increasingly more severe as the institution    failures.
falls into lower capital categories. The capital categories
are well-capitalized, adequately capitalized,
undercapitalized, significantly undercapitalized, and
critically undercapitalized.
3 Within Treasury, OCC is the regulator for national          4 Prior to Dodd-Frank, an MLR was required if loss to
banks. Effective July 21, 2011, OCC assumed the               the DIF from a bank failure exceeded the greater of
regulatory responsibility for federal savings associations    $25 million or 2 percent of the institution’s total assets.
that were previously regulated by the former Office of        There was also no requirement for us to review bank
Thrift Supervision.                                           failures with losses less than this threshold.



           Treasury Office of Inspector General Semiannual Report—September 2012                                            10
                                        Office of Audit – Significant Audits and Other Products

With respect to OCC’s and the former OTS’s            supervision of Integra was appropriate. In
oversight, we found that both regulators              addition, we concluded that OCC appropriately
conducted regular and timely examinations and         implemented prompt corrective actions as the
identified operational problems, but were slow        bank’s capital levels fell.
to take timely and effective enforcement
actions. We also found that in assessing these        We also reported on three other matters
institutions, examiners regularly gave too much       regarding OCC’s supervision of Integra.
weight to profitability and performing loans and      Specifically, (1) OCC’s examination working
not enough to the amount of risk these                papers for Integra were not complete, a
institutions had taken on. We also noted that         deficiency we have noted in prior material loss
regulators took appropriate prompt corrective         reviews; (2) OCC examiners reviewed Integra’s
actions when warranted but those actions did          due diligence performed in connection with the
not prevent a material loss to the DIF.               Prairie Bank and Trust Company acquisition,
                                                      however, OCC does not have formal guidance
Material Loss and In-Depth Reviews                    for examiners to use when evaluating bank
                                                      acquisitions; and (3) with regard to OCC’s
Material Loss Review of Integra Bank (closed          review process for recommending approval of
July 29, 2011; estimated loss to the DIF -            the TARP application by Integra’s holding
$205.9 million)                                       company, certain information about Integra’s
                                                      financial condition, such as a potential goodwill
Our MLR found that Integra Bank (Integra),            impairment, was not included in the OCC
Evansville, Indiana, failed because it pursued an     TARP case decision memo.
aggressive growth strategy which led to high
concentrations in commercial real estate loans.       In addition to the estimated loss to the DIF,
In connection with its strategy, Integra paid a       FDIC estimated that the failure of Integra
significant premium to acquire Prairie Bank and       would result in a loss of $51 million to FDIC’s
Trust Company, a state chartered bank in the          Debt Guarantee Program. Also, Treasury
Chicago metropolitan area with weak credit            expects that the $83.6 million that was provided
administration processes and a commercial real        to Integra’s holding company under TARP will
estate loan portfolio of inferior asset quality.      not be repaid.
With the economic downturn, the performance
of Integra’s commercial real estate loans             We reaffirmed two recommendations from
declined. This decline in performance led to          prior material loss reviews related to limits on
sustained loan losses and required Integra to         risky concentrations and documentation of
write off its entire goodwill balance, including      supervisory activity. We did not identify any
goodwill that was recorded when it acquired the       new recommendations in this material loss
trust company.                                        review. (OIG-12-050)

We determined that OCC provided ongoing
supervision of Integra through regular on-site
and off-site reviews. Although OCC’s
supervision did not prevent a material loss to
the insurance fund, we concluded that its

         Treasury Office of Inspector General Semiannual Report—September 2012                           11
                                         Office of Audit – Significant Audits and Other Products

In-Depth Review of First National Bank of Davis
(closed March 11, 2011; estimated loss to the         Nonmaterial Loss Reviews
DIF - $25.9 million)
                                                      During this semiannual reporting period,
We performed an in-depth review of First              8 OCC-regulated financial institutions failed
National Bank of Davis, Davis, Oklahoma,              with individual losses below $150 million, the
based on the nature of the bank’s unsafe and          current threshold triggering an MLR. During
unsound lending practices.                            the period, we issued 9 final audit reports on
                                                      these nonmaterial reviews (5 on failures during
Due to unsafe or unsound lending practices and        the current period and 4 on failures from the
violations of law, OCC identified $8.6 million in     prior period). A list of these audit reports is
loan losses that the bank had failed to               provided in the Statistical Summary section of
recognize. OCC noted that the majority of these       this report.
losses involved extensions of credit to two
borrowers. The combination of loans to these          We determined that, for these banks, there were
borrowers and their related interests totaled         no unusual circumstances surrounding the
almost $12 million, which exceeded the banks          failures or the supervision exercised by OCC, or
legal lending limit of $1.2 million as of             the former OTS, that would warrant a more in-
December 31, 2010.                                    depth review of the failures by our office.

Our review of First National Bank of Davis            Other Banking-Related Work
revealed that (1) OCC did not timely identify
the extensions of credit that contributed to the      OCC’s Supervision of National Bank’s
bank’s failure, (2) OCC’s supervisory response        Foreclosure Practices
to a 2009 federal law enforcement agency
investigation of the bank was insufficient, and       We performed an audit of OCC’s supervision of
(3) OCC did not confirm that the bank had             foreclosure practices at national banks with
addressed previous supervisory directives.            large mortgage servicing portfolios. We
                                                      undertook this audit in response to reports of
OCC provided responsive corrective action             “robo-signing” and document manipulation by
plans to address our recommendations to               financial institutions pursuing foreclosure in
(1) remind examiners of the importance of             connection with the wave of mortgage defaults
(a) performing reconciliations of all reports         that took place during the recent economic
submitted by bank management to ensure their          crisis. Also, this is an area of OCC supervision
accuracy and (b) analyzing a bank’s new               that we had not previously reviewed.
products to determine the effect on credit risk;
(2) establish formal guidance to address OCC’s        We found that OCC examination procedures
response to investigations and requests for           during the period 2008 through 2010 were not
information from law enforcement agencies,            sufficient in scope or application to identify
and (3) remind examiners of the importance of         significant weaknesses in national banks’
verifying that banks’ corrective actions to           foreclosure documentation and processing
previously noted deficiencies. (OIG-12-055)           functions. During the period of our review,
                                                      OCC did not consider foreclosure

         Treasury Office of Inspector General Semiannual Report—September 2012                      12
                                             Office of Audit – Significant Audits and Other Products

documentation and processing to be an area of             OCC ensures consistency in the administration
significant risk and, as a result, did not focus          of examinations across the country; (3) the
examination resources on this function. The               ability of OCC-regulated institutions to question
nature and extent of concerns found by OCC                examination results, such as through an
during its inter-agency review of mortgage                Ombudsman, an appeals process, or informal
foreclosure processes at major mortgage                   channels; and (4) the frequency and success of
servicers indicated that OCC underestimated               such appeals. Our review was requested by the
the level of risk in the function during the              Chairman of the Senate Committee on Banking,
period we reviewed. We noted a number of                  Housing, and Urban Affairs. The OIGs of
conditions in our report that, taken together,            FDIC, FRB, and the National Credit Union
may have contributed to this underestimation.             Administration were similarly requested to
In addition, we noted that the Comptroller’s              review their respective agencies’ processes.
Handbook for Mortgage Banking, which, among
other things, provides the suggested                      We found that: (1) OCC’s four districts
examination procedures covering foreclosures,             established timeliness benchmarks for
had not been updated in 13 years.                         examinations that were generally consistent, and
                                                          mostly met; (2) OCC examiners in all districts
In responding to our recommendations, OCC                 use the Comptroller’s Handbook and the
stated that it (1) had undertaken a number of             Uniform Financial Institutions Rating System,
actions to enhance examiner focus on                      or “CAMELS,” to among other things, promote
operational risk; (2) had reviewed the coding of          consistency in the examination process;
foreclosure-related consumer complaints and               (3) OCC districts have quality assurance
determined that the current coding was                    programs to monitor and evaluate the
sufficient to identify consumer concerns;                 administration of examinations; (4) banks have
(3) planned to update the Comptroller’s                   the ability to question examination results
Handbook as part of its broader project to                formally and informally through the OCC
integrate OCC’s and the former OTS’s policies             Ombudsman and the district supervisory
and examination handbooks; and (4) issued a               offices; and (5) community banks made few
policy development manual that addresses the              appeals.
development and updating of OCC handbooks.
(OIG-12-054)                                              Our review identified the need for (1) OCC’s
                                                          Western District to expand its quality assurance
Review of OCC Community Bank Examination                  program to include comprehensive reviews of
and Appeals Processes                                     its examination process; (2) OCC to update and
                                                          revise its policies and procedures regarding
We performed an audit to determine for OCC-               appeals, to include the responsibilities of both
regulated community banks 5 and federal savings           the Ombudsman’s office and the supervisory
associations (1) examination timelines; (2) how           district offices, and ensure that guidance
                                                          provides consistency in interpretation,
                                                          application, and documentation of the appeals
5 OCC generally defines community banks as those with
less than $1 billion in total assets.                     process; and (3) OCC personnel to enter
                                                          examination data correctly into Examiner View


          Treasury Office of Inspector General Semiannual Report—September 2012                         13
                                           Office of Audit – Significant Audits and Other Products

so that OCC can more effectively monitor and            experience into consideration. Our most recent
measure actual examination timeliness against           joint report did not include any
benchmarks. OCC’s corrective actions                    recommendations. (OIG-12-075)
underway and planned were responsive to our
recommendations. (OIG-12-070)                           Recovery Act Audits
Status of the Transfer of OTS Functions                 During this semiannual period, we issued five
                                                        audit reports as part of our ongoing oversight of
During this semiannual period, our office issued        Treasury’s more than $20 billion of non-IRS
the fourth joint review of the transfer, pursuant       spending authority under the Recovery Act.
to Dodd-Frank, of the functions, employees,             This includes $3 billion of tax credit authority
funds, and property of the former OTS to the            provided to the CDFI Fund’s New Markets Tax
FRB, the FDIC, and OCC. In accordance with              Credit program. As part of our continuing
Title III of the Act, the transfer occurred in July     oversight responsibilities, we conduct proactive
2011.                                                   audits of recipients of funds disbursed as part of
                                                        the Treasury’s Recovery Act programs:
Our joint reviews are also mandated by Dodd-            Payments to States in Lieu of Tax Credits for
Frank. Our first joint review determined                Low Income Housing (Section 1602), Payments
whether the Joint Implementation Plan (Plan)            in Lieu of Tax Credits for Specified Energy
for the transfer prepared by FRB, FDIC, OCC,            Properties (Section 1603), and the CDFI Fund
and OTS conformed to relevant provisions in             New Markets Tax Credit Program. As of
the Act. After the initial joint review of the Plan,    September 2012, Treasury has disbursed
the Act requires that every 6 months we jointly         approximately $20 billion under these programs.
provide a written report on the status of the           We conducted site visits of 45 energy properties
implementation of the Plan to FRB, FDIC, and            valued at approximately $1.5 billion under
OCC, with a copy to Congress. We issued the             Treasury’s 1603 Program and reviews of 5 state
first and second reports under this requirement         housing authorities are underway comprising
in September 2011, and March 2012,                      more than $1 billion awarded under Treasury’s
respectively.                                           Payments to States in Lieu of Tax Credits for
                                                        Low Income Housing.
We concluded in our fourth review that
procedures and safeguards are in place as               Specified Energy Properties
outlined in the Plan to ensure that transferred
OTS employees are not unfairly disadvantaged;           We audited selected recipients to determine
and that the actions in the Plan that were              whether the specified energy properties existed,
necessary to transfer the office’s property to          were placed-in-service within the eligible
OCC were implemented. However, we                       timeframes, and the award amounts were
identified certain items are ongoing. For               appropriate. During this semiannual period, we
example, OCC was working on a process for               issued audit reports on four wind facilities:
certain OTS examiners to acquire the National           Panther Creek Wind Farm III (Award amount -
Bank Examiner commission without taking the             $107,636,863), Grand Ridge Energy II LLC
full OCC Uniform Commission Examination; a              (Award amount - $32,300,165), Grand Ridge
process that would take the examiner’s                  Energy III LLC (Award amount - $32,094,053);

         Treasury Office of Inspector General Semiannual Report—September 2012                         14
                                           Office of Audit – Significant Audits and Other Products

and Moraine Wind II LLC (Award amount -                 We recommended that the New Markets Tax
$28,019,520). We found the subject properties           Credit Program policies and procedures be
existed and were placed in service within the           revised to require that all due diligence reviews
eligible timeframes. Additionally, the award            of applicant’s affiliates and/or common
amounts were appropriate except for $746 of             enterprises be documented. Furthermore, the
the award amount to Panther Creek Wind Farm             program’s policies and procedures should be
III. Treasury management agreed to take                 revised to clarify the level of documentation
appropriate action to seek reimbursement from           necessary for the performance of legal reviews
the recipient. (OIG-12-062, OIG-12-063,                 and the timeliness of notifications to ineligible
OIG-12-064, and OIG-12-069)                             applicants. CDFI Fund management agreed
                                                        with our recommendations. (OIG-12-065)
CDFI Fund Should Revise Policies and
Procedures to Clarify Eligibility Reviews Under         Other Performance Audits
the New Markets Tax Credit Program
                                                        FinCEN’s BSA IT Modernization Program Is
We assessed CDFI Fund’s process for                     Meeting Milestones, But Oversight Remains
reviewing and selecting applicants to receive the       Crucial
additional $3 billion of New Markets Tax Credit
authority provided by the Recovery Act for the          In November 2006, FinCEN began a system
2008 and 2009 allocation rounds. We found the           development effort, the BSA IT Mod program,
Fund timely allocated its additional tax credit         to improve the collection, analysis, and sharing
authority and noted no exceptions concerning            of BSA data. The intent of the system was,
the review and selection of awardees. However,          among other things, to transition BSA data
we did identify areas needing improvement with          from IRS to FinCEN. BSA IT Mod is estimated
regard to documenting eligibility reviews. While        to cost $120 million and is to be completed in
the New Markets Tax Credit program                      2014.
management performed applicant eligibility
reviews, they could not support whether                 Pursuant to a Congressional directive, we
additional due diligence reviews were performed         completed the second in a series of audits of the
on potential affiliates and/or common                   BSA IT Mod program. The objectives of these
enterprises identified by the program staff. We         audits are to determine if FinCEN is
also noted instances where the program policies         (1) meeting cost, schedule, and performance
and procedures were not followed. That is, we           benchmarks for the program and (2) providing
noted that all documentation related to an              appropriate oversight of contractors. The
applicant’s qualified equity investment was not         period covered by our second audit was June
being forwarded to CDFI Fund Legal Counsel              2011 through May 2012.
for review and that unqualified candidates were
not timely notified of their ineligibility to receive   As of May 2012, we found that BSA IT Mod
a tax credit allocation. These instances,               was on schedule and within budgeted cost.
however, did not impact the awarding of 2008            Development of the program met all major
and 2009 tax credit allocations.                        scheduled milestones, though the planned
                                                        completion dates for certain projects were


          Treasury Office of Inspector General Semiannual Report—September 2012                         15
                                         Office of Audit – Significant Audits and Other Products

extended. As a noteworthy accomplishment,             respect to Treasury’s Office of the Chief
FinCEN became the authoritative source for            Information Officer, we found that the office’s
BSA data when it transitioned the collection,         monitoring of the program continued, primarily
processing, and storage of all BSA data from          through reviews of FinCEN-prepared
IRS in January 2012.                                  documentation.

FinCEN tested the performance of BSA IT               Our second audit did not make any new
Mod projects completed as of our review, and          recommendations to FinCEN. (OIG-12-077)
resolved many significant issues identified
during the testing. To address previously             Treasury’s Financial Agent Selection Process
reported concerns with the new system of              for the Agency Mortgage Backed Securities
reports, FinCEN was able to provide BSA data          Purchase Program Was Not Fully Documented
from its E-Filing system in the same format IRS
used. That is, it was able to successfully map the    HERA authorized the Secretary of the Treasury
data from the new BSA forms to the legacy IRS         to purchase obligations and securities issued by
system format.                                        the Fannie Mae, Freddie Mac, and the Federal
                                                      Home Loan Banks. Treasury’s authority to
Our report also noted the potential risks that        make these purchases ended December 31,
still remain to the successful implementation of      2009. The Agency Mortgage Backed Securities
BSA IT Mod. One potential risk is the                 (MBS) Purchase Program was one of several
interdependency between the component                 programs that Treasury established under its
projects. For example, changes made to one            HERA authorities. Under this program,
project are likely to result in changes to other      Treasury purchased and sold through financial
projects. There is also risk in that additional       agents, MBS guaranteed by Fannie Mae and
costs and schedule delays could occur if project      Freddie Mac. These securities are commonly
resources are reallocated and used to resolve         referred to as “agency MBS”. 6
defects, conduct additional testing, or enhance
projects during development.                          We assessed Treasury's process for
                                                      (1) determining the services to be carried out by
FinCEN did maintain oversight of the BSA IT           financial agents and (2) selecting and awarding
Mod program. However, we did identify an area         contracts to financial agents. We found that
of concern where FinCEN discontinued                  Treasury lacked written policies and procedures
independent program assessments by its Project        for selecting financial agents, and did not fully
Management Office. The office turned its focus        document its decision-making process. Even so,
to providing technical assistance for BSA IT          we found that the approach used for selecting
Mod’s configuration management after
completing two program assessments. While we          6 In total, before its purchase authority expired, Treasury
                                                      acquired $225 billion of agency MBS. Treasury started to
did not identify any adverse impact to the            sell its agency MBS in March 2011. In March 2012,
program so far, as a result of the Program            Treasury announced the completion of its sale of
Management Office’s reduced independent               remaining agency MBS and reported that overall, cash
                                                      returns of $250 billion were received from the agency
oversight, we plan to follow up on this area in       MBS portfolio through sales, principal, and interest.
our upcoming audits of the program. With


         Treasury Office of Inspector General Semiannual Report—September 2012                                 16
                                           Office of Audit – Significant Audits and Other Products

financial agents as asset managers for the              Linebarger, Goggan, Blair & Sampson, LLP
Agency MBS Purchase Program, as described               (prior OIG report no. OIG-08-043); and
by Treasury officials, was reasonable. In               Diversified Collection Services, Inc. (prior OIG
addition, according to Treasury officials, in the       report no. OIG-09-025). We found that FMS
midst of the rapidly developing economic crisis         has taken steps to ensure the deficiencies found
at the time, a deliberate management decision           with the private collection agencies in our prior
was made to apply resources to other financial          audits were corrected. (OIG-12-071)
stability programs rather than to produce
documentation for the financial agent selection         Information Technology
process. While we understand the pressures
facing the very small group of people involved          FMS Successfully Demonstrated Recovery
in the selection process, we believe that a basic       Capability for Treasury Web Application
tenet of government accountability is                   Infrastructure
maintaining complete and appropriate
documentation. Doing so is in the best long-            FMS successfully demonstrated its disaster
term interest of the Department, should, at a           recovery capability for Treasury Web
later date, it want to repeat its actions or they be    Application Infrastructure. However, we found
called into question. Accordingly, we                   that two web applications, Government-Wide
recommended that Treasury develop written               Accounting and Shared Accounting Module, did
policies and procedures for selecting financial         not complete one of the three disaster recovery
agents that will, among other things, require           exercise reconstitution test objectives.
timely documentation of the selection process.          Additionally, we found that Treasury Web
In a written response, Treasury management              Application Infrastructure documentation could
generally agreed with the recommendation and            be improved to include information required by
stated that they are moving to develop written          the National Institute of Standards and
policies and procedures. (OIG-12-061)                   Technology and the Department. FMS’s
                                                        management response identified corrective
FMS Implemented Corrective Actions for                  actions that met the intent of our two
Private Collection Agencies                             recommendations. (OIG-12-052)

Under the Debt Collection Improvement Act of            Fiscal Year 2012 Audit of Treasury’s FISMA
1996, FMS maintains a schedule of private               Implementation for Intelligence Systems
collection agencies. These agencies are private
sector companies having expertise in the area of        The Federal Information Security Management
debt collection, to assist the government in its        Act (FISMA) requires each Inspector General
debt collection efforts. We reviewed the                to perform an annual independent evaluation of
corrective actions taken by FMS in response to          their agency’s information security program and
recommendations made in audit reports issued            practices. For fiscal year 2012, we determined
by our office in September 2008 and January             that Treasury’s information security program
2009 on three private collection agencies. The          and practices as they relate to its intelligence
three agencies were Pioneer Credit Recovery,            systems were adequate, but improvements were
Inc. (prior OIG report no. OIG-08-043);                 needed. Due to the sensitive nature of these
                                                        systems, our report is classified. (OIG-12-072)

          Treasury Office of Inspector General Semiannual Report—September 2012                        17
                                          Office of Audit – Significant Audits and Other Products

                                                       Representative and TNet Program Management
Sufficient Protections Were In Place for               Office did not adequately monitor TNet’s
Departmental Offices’ Network and Systems              security performance measures; (5) Plan of
                                                       Action and Milestones management could be
We performed vulnerability assessments and             improved; and (6) certain TNet security
penetration tests of the Departmental Offices’         procedures were not documented as required.
local area network. We determined that its             The Treasury Chief Information Officer agreed
offices had sufficient protections in place for its    with our recommendations and provided
local area network. However, we did identify           responsive corrective action plans.
weaknesses that should be remediated to                (OIG-12-076)
strengthen the security protection for their local
area network. Specifically, we found: (1) some         Financial Management Audits
local area network devices were configured with
insecure default usernames and passwords; (2) a        We completed three reports described below in
number of local area network servers were              support of the audit of Treasury’s fiscal year
missing the latest service packs or running            2012 consolidated financial statements and the
obsolete operating systems; and (3) weaknesses         financial statement audits of certain other
in physical security practices at Treasury             federal agencies.
buildings, which were quickly addressed after
being identified. The Treasury Chief                   KPMG LLP (KPMG), under a contract with
Information Officer agreed with our                    our office, examined the accounting and
recommendations and provided responsive                procurement processing, and general computer
corrective action plans. (OIG-12-078)                  controls related to financial management
                                                       services provided to various federal agencies by
Treasury's Security Management of TNet Needs           BPD’s Administrative Resource Center. The
Improvement                                            auditor found, in all material respects, that
                                                       (1) the description of controls for these
TNet provides Treasury, its bureaus, and on-site       activities fairly presented the controls that were
contractors with telecommunication services. We        designed and implemented throughout the
concluded that Treasury’s security management          period July 1, 2011 to June 30, 2012; (2) these
of TNet needs improvement in that it did not           controls were suitably designed; and (3) the
ensure that security controls fully met federal        controls tested operated effectively throughout
standards and guidelines. Specifically, we found       the period July 1, 2011 to June 30, 2012.
that (1) weaknesses existed in physical security       (OIG-12-068)
protection of TNet at AT&T’s primary Internet
Data Center site; (2) not all security controls        KPMG, under contract with our office,
required by National Institute of Standards and        performed examinations that covered (1) the
Technology Special Publication 800-53,                 general computer and trust funds management
Revision 3, Recommended Security Controls for          processing controls used for various federal and
Federal Information Systems and Organizations, were    state agencies’ transactions by BPD’s Trust
tested and implemented; (3) TNet’s patch               Funds Management Branch, and (2) general
management process was not fully                       computer and investment/redemption
implemented; (4) the Contracting Officer’s

         Treasury Office of Inspector General Semiannual Report—September 2012                         18
                                          Office of Audit – Significant Audits and Other Products

processing controls used for various federal
agencies’ transactions by the bureau’s Federal
Investments Branch. The auditor found, in all
material respects, that (1) the description of
controls for these activities fairly presented the
controls that were designed and implemented
throughout the period August 1, 2011 to
July 31, 2012; (2) these controls were suitably
designed; and (3) the controls tested operated
effectively throughout the period August 1,
2011 to July 31, 2012. (OIG-12-073,
OIG-12-074).

Audits of the fiscal year 2012 financial
statements or schedules of the Department and
component reporting entities were in progress
at the end of this semiannual reporting period.
The following table shows audit results for
fiscal years 2011 and 2010.




         Treasury Office of Inspector General Semiannual Report—September 2012                19
                                                               Office of Audit – Significant Audits and Other Products

Treasury-audited financial statements and related audits
                                    Fiscal year 2011 audit results                      Fiscal year 2010 audit results

Entity                              Opinion           Material       Significant        Opinion    Material       Significant
                                                      weak-          deficiencies                  weak-          deficiencies
                                                      nesses                                       nesses
Government Management Reform Act/Chief Financial Officers Act requirements
Department of the Treasury              UQ                 1                        3         UQ              1                  3
Internal Revenue Service (A)            UQ                 2                        1         UQ              2                  1
Other required audits
Department of the Treasury’s                   UQ                0                  0         UQ              0                  0
Special-Purpose Financial
Statements
Office of Financial Stability                  UQ                0                  1         UQ              0                  1
(TARP) (A)
Bureau of Engraving and Printing               UQ                0                  1         UQ              0                  0
Community Development                          UQ                2                  0         UQ              0                  1
Financial Institutions Fund
Office of DC Pensions                          UQ                0                  1         UQ              0                  1
Exchange Stabilization Fund                    UQ                0                  0         UQ              0                  1
Federal Financing Bank                         UQ                0                  0         UQ              0                  0
Office of the Comptroller of the               UQ                0                  0         UQ              0                  0
Currency
Office of Thrift Supervision                   UQ                0                  0         UQ              0                  0
Treasury Forfeiture Fund                       UQ                0                  0         UQ              0                  0
Mint
   Financial statements                        UQ                0                  1         UQ              0                  0
   Custodial gold and silver                   UQ                0                  0         UQ              0                  0
   reserves
Other audited accounts that are material to Treasury financial statements
Bureau of the Public Debt
Schedule of Federal Debt (A)                  UQ                 0                  0         UQ              0                  0
Government trust funds                        UQ                 0                  0         UQ              0                  0
Financial Management Service
   Treasury-managed accounts                  UQ                 0                  1         UQ              0                  1
   Operating cash of the federal              UQ                 0                  1         UQ              0                  1
   government
Management-initiated audit
Financial Crimes Enforcement                 UQ                  0                  0         UQ              0                  0
Network
Alcohol and Tobacco Tax and                  UQ                  1                  0         UQ              1                  0
Trade Bureau
UQ           Unqualified opinion
(A)          Audited by the Government Accountability Office




              Treasury Office of Inspector General Semiannual Report—September 2012                                         20
                                                        Office of Audit – Significant Audits and Other Products

The following instances of noncompliance with the Federal Financial Management Improvement Act of
1996, which all relate to IRS, were reported in connection with the audit of the Department’s fiscal year
2011 consolidated financial statements. The status of these areas of noncompliance, including progress
in implementing remediation plans, will be evaluated as part of the audit of Treasury’s fiscal year 2012
financial statements.

                                                                                                                         Type of
Condition                                                                                                                noncompliance
Persistent deficiencies in internal control over unpaid tax assessment systems and information security remain           Federal financial
uncorrected. As a result of these deficiencies, IRS was (1) unable to rely upon its systems or compensating and          management systems
mitigating controls to provide reasonable assurance that its financial statements are fairly presented, (2) unable to    requirements
ensure the reliability of other financial management information produced by its systems, and (3) at increased risk of
compromising confidential IRS and taxpayer information. (first reported in fiscal year 1997)
Automated systems for tax related transactions did not support the net federal taxes receivable amount on the balance    Federal accounting
sheet and other required supplementary information related to uncollected taxes – compliance assessments and write-      standards
offs – as required by Statement of Federal Financial Accounting Standards No. 7, Accounting for Revenue and Other
Financing Sources and Concepts for Reconciling Budgetary and Financial Accounting. (first reported in fiscal year
1997)




             Treasury Office of Inspector General Semiannual Report—September 2012                                                            21
Office of SBLF Program                                We recommended that Treasury recoup
Oversight – Significant                               $133,250 identified as a “reckless” misuse of
                                                      funds; disallow $160,988 in administrative
Products                                              expenses unless California documents actual
                                                      costs; and consider other actions, including
State Small Business Credit                           withholding administrative expenses until the
                                                      State corrects its practices. We also
Initiative                                            recommended that Treasury determine whether
California Needs to Improve Oversight of              California is in general default of its agreement,
Programs Participating in the State Small             and if so, consider suspending or terminating
Business Credit Initiative                            funding to California; and require the State to
                                                      report on its compliance with borrower/lender
We determined that most of the $3.6 million           assurance requirements and the sex offender
spent by California for the SSBCI was used            status of one borrower. (OIG-SBLF-12-003)
properly. However, $133,250 in loan loss
reserves funded under California’s Small
                                                      Montana’s Use of Funds Received from SSBCI
Business Loan Guarantee Program did not meet
requirements. The expenditures constitute a           We reported that Montana misused
“reckless” misuse of funds, which under the           $2.73 million in SSBCI funds on loans for
Small Business Jobs Act, Treasury must recoup.        passive real estate investments and the
California also reported $160,988 in                  refinancing of prior debt, which are prohibited
administrative expenses that appeared                 under the Small Business Jobs Act or SSBCI
reasonable but were not supported by proper           Policy Guidelines. However, we did not find the
documentation.                                        misuse to be intentional or reckless, as Montana
                                                      sought guidance from Treasury before enrolling
Additionally, 58 percent of the 73 loans we           the loans. Responding to Montana’s inquiries,
tested lacked borrower and lender assurances          Treasury officials did not provide definitive
and one loan may have gone to a sex offender.         guidance on the permissibility of passive real
In August 2011, we recommended that                   estate loans. Treasury may have incorrectly told
participating states be required to collect and       Montana that refinancing prior debt to the same
review assurances and to represent that they are      lender was allowable if the prior debt had
enforcing compliance with all SSBCI program           matured and new underwriting had occurred.
requirements. Treasury agreed to address the          Further, not all of the conversations between
collection of assurances from banks, but              Treasury and Montana evidencing the guidance
asserted that banks’ reports mandated by the          given the State were documented, which would
Allocation Agreement between Treasury and             be needed to determine recklessness on the part
participating states serve that purpose. For          of the State. Additionally, we determined that
September and December 2011, California               $3,426 in personnel costs were not allowable or
provided Treasury with reports from banks             allocable because the costs were not properly
affirming that they complied with lender              supported.
assurance requirements.


         Treasury Office of Inspector General Semiannual Report—September 2012                        22
                                       Office of SBLF Program Oversight – Significant Products

We recommended that Treasury notify                   • Regulators’ bank examination reports
participating states that passive real estate loans       flagged supervisory concerns beyond those
and refinancing of prior debt are misuses of              disclosed in memos to Treasury. Treasury
funds and encourage them to review their loan             was aware of these for all but one bank;
enrollments for compliance with SSBCI
guidance published on April 25, 2012. We also         • Treasury gave adequate consideration to
recommended that Treasury disallow $3,426 in              banks it rejected; and
administrative expenses unless Montana can            • Of the 51 banks denied funding, 32 did not
support such costs. Further, we recommended               meet eligibility requirements. Treasury based
that Treasury establish a procedure to document           denials for the other 19 on the banks’
its responses to state inquiries about permissible        financial health or lending practices.
uses of funds, and inform states that testimonial
evidence will be insufficient in proving that         Because the period of investment for SBLF has
Treasury was consulted about compliance with          passed, we made no recommendations.
program requirements. Therefore, States should        Treasury had agreed to our previous
secure Treasury’s written approval before             recommendation to create a watch list for banks
proceeding with loans involving a questionable        with severe financial issues.
use of proceeds. Finally, we recommended that         (OIG-SBLF-12-004)
Treasury either provide a clear and rigorous
legal analysis demonstrating how it concluded         Initial SBLF Dividend Rate Calculations Used
that program funds could be used to “re-fund”
                                                      Incorrect Information
an existing loan to the same lender, or revise
SSBCI Policy and Guidance to disallow such a          To document SBLF lending gains for purposes
result. If Treasury continues to allow “re-           of calculating program dividend rates, banks
fundings,” it will need to ensure that borrowers      reported their small business lending activity
are the primary beneficiaries.                        during the baseline period and the program’s
(OIG-SBLF-12-006)                                     initial quarter. Our review of these reports
                                                      determined that 8 of the 10, or 80 percent, of
Small Business Lending Fund                           the institutions sampled incorrectly reported
                                                      qualified lending gains. The banks’ errors
Soundness of SBLF Investment Decisions
                                                      totaled $74 million, most of which was
Regarding Later-Entry, Withdrawn, and                 attributed to one bank over-reporting its
Reconsidered Institutions                             baseline by $48 million, or 43 percent. Four of
                                                      the banks we reviewed overstated their gains,
We reviewed 47 banks regulated by FDIC and
                                                      but even larger understatements by 4 other
OCC and identified 4 with repayment
                                                      banks caused Treasury to report $45 million less
probabilities below the 80 percent threshold for
                                                      in qualified lending than actually occurred at the
acceptance into the SBLF program. For 3,
                                                      eight banks.
compensating factors supported Treasury’s
approval, but Treasury did not have an adequate
basis to approve the fourth. We also found that:




         Treasury Office of Inspector General Semiannual Report—September 2012                       23
                                              Office of SBLF Program Oversight – Significant Products

The errors observed were largely due to
institutions incorrectly transferring information
from Call Reports, 7 excluding ineligible loans,
or misclassifying loans. As a result, dividend or
interest rates, which adjust each quarter, could
be incorrect for these institutions. Also due to
the bank errors, Treasury’s October 26, 2011,
Use of Funds Report over-reported lending
increases for three institutions and under-
reported them for four. These errors appeared
in two later quarterly reports and will be in
subsequent reports unless corrected.

While Treasury will need to test for errors that
banks have made in transferring information
and excluding loans, it will not be able to
identify misclassification errors because it
cannot access banks’ files and accounting
systems. Treasury will also need to follow up
with the eight banks, and determine whether
they should correct the reports and adjust the
initial dividend rates as appropriate. Further,
Treasury will need to obtain from two banks
support showing that two loans constituted
qualified lending. If the institutions cannot
produce the documentation, Treasury will need
to exclude the loans from small business lending
activity reported to Congress. Finally, Treasury
will need to ensure that the October 2012 Use of
Funds Report contains corrections for errors
identified in the audit. (OIG-SBLF-12-005)




7Quarterly financial regulatory reports (referred to as Call
Reports) vary by type of institution and include
Consolidated Reports of Condition and Income, Thrift
Financial Reports, Y-9s, Uniform Bank Performance
Reports, and Bank Holding Company Performance
Reports.




           Treasury Office of Inspector General Semiannual Report—September 2012                   24
Office of Investigations –                             attendance fraud. It also was alleged that the
                                                       senior official conducted personal business
Initiatives and Significant                            involving a non-profit organization during work
                                                       hours. The investigation determined that the
Investigations                                         senior official owed BPD for over 1,200 hours
                                                       from 2009 to 2012, or approximately $97,800 in
                                                       salary. The case was declined for prosecution by
Initiatives
                                                       the U.S. Attorney’s Office and was referred to
                                                       BPD for administrative action in August 2012.
Improper Payments/Check Forgery Insurance
Fund Initiative
                                                       Former Bank President Pleads Guilty to
As reported in our September 2011 and March            Embezzlement Charge
2012 semiannual reports, we embarked upon an
initiative aimed at improper payments made by          As a result of a 2-year joint investigation with
the Treasury Department, specifically improper         FDIC OIG and the Federal Bureau of
payments from the Treasury’s Check Forgery             Investigation related to the failure of the First
Insurance Fund. The Fund was established in            National Bank of Rosedale in Mississippi, the
1941 to serve as a restitution source to payees        former president of the bank pled guilty to one
when checks drawn upon federal treasury                count of violating 18 U.S.C. 656 –
depositories had been lost, forged or stolen.          Embezzlement. The former president diverted
                                                       bank funds to pay personal bills. In addition, by
Since starting this initiative, we have referred       concealing the true identities of the borrowers
82 subjects for prosecution, with 14 of those          on several loans and the condition of the loans
subjects being referred during this reporting          which led to the bank’s failure, his conduct
period. Also during this reporting period,             resulted in the subversion of OCC’s
8 subjects have been charged and arrested. In          examination process.
total, 24 individuals have been convicted and
sentenced to date as a result of this initiative.      On August 30, 2012, the former bank president
                                                       was sentenced in U.S. District Court in
More recently, we have expanded this initiative        Aberdeen, Mississippi, to 63 months’
to include potentially fraudulent payments made        imprisonment, a $100 special assessment, and
by Treasury using the Automated Clearing               $1,530,000 in restitution.
House and electronic fund transfer payment
systems.                                               $4.2 Million Seized in Mutilated Currency
                                                       Investigation
Significant Investigations                             Our office initiated a joint investigation with the
                                                       U.S. Secret Service into an allegation that a large
Senior BPD Official Investigated for Time and          national bank sent packages of mutilated
Attendance Abuse                                       currency, on behalf of a state-owned
                                                       Argentinian bank, totaling approximately
Our office received an allegation that a BPD
                                                       $9 million, to the Bureau of Engraving and
senior official was committing time and
                                                       Printing (BEP) for redemption. BEP

          Treasury Office of Inspector General Semiannual Report—September 2012                        25
                            Office of Investigations – Initiatives and Significant Investigations

determined that the currency submitted was            destroying records. The subject embezzled
intentionally mutilated in violation of Title 18      approximately $1,730,000 from TreasuryDirect
U.S.C. 331 - Mutilation, diminution, and              accounts and approximately $199,000 from
falsification of coins/currency.                      other Orange County, Florida, businesses.

In May 2012, the U.S. District Court for the          As a result of this investigation, the subject pled
District of Columbia issued a seizure warrant         guilty to one count of violating 18 U.S.C. 1343 -
which was executed for $4,245,800 in mutilated        Wire Fraud, and agreed to make full restitution
currency pursuant to Title 18 U.S.C. 1956 –           in the amount of $1,732,315 in U.S. District
Money Laundering and other civil statutes.            Court in Orlando, Florida. The subject is
                                                      awaiting sentencing.
Bond Fraud Investigation Results in Claim for
Nearly $75,000                                        BPD Employee Resigns in Lieu of Termination
                                                      after Admitting to Viewing Pornography
During the reporting period, we concluded an
investigation into an allegation that an individual   We initiated an investigation into an allegation
submitted a claim for 114 missing U.S. savings        that a BPD employee had viewed pornographic
bonds to BPD. As a result of the claim, BPD           images and videos on his government computer
issued a check to the individual in the amount        during government time. A review and analysis
of $100,950.73. Shortly thereafter, the individual    of the employee’s government computer found
cashed the replacement check and then began           over 800 different pornographic images and
cashing-in the purportedly "missing" bonds.           numerous pornographic videos. The subject
The subject admitted to negotiating both the          also admitted to viewing the pornographic
replacement check and 78 of the 114 U.S.              material on his government computer during his
savings bonds reported missing. The                   duty hours. After BPD proposed termination,
investigation was declined for prosecution by         the employee resigned in lieu of termination.
the U.S. Attorney’s Office; however, a
collections claim was filed with the U.S.             U.S. Mint Employee Suspended for Viewing
Department of Justice against the individual in       Pornography at Work
the amount of $74,715.50.
                                                      We opened an investigation based on
Guilty Plea in TreasuryDirect Embezzlement            information provided by the U.S. Mint
Scheme                                                regarding an employee’s misuse of a Mint-issued
                                                      laptop computer to view pornographic sites and
The Federal Bureau of Investigation and the           images. The investigation included a forensic
Winter Garden Police Department requested             analysis of the computer and an interview of the
OIG’s assistance involving an embezzlement            employee, both substantiating that the employee
scheme in BPD TreasuryDirect accounts. The            used his computer to view pornographic images
subject attempted to conceal the embezzlement         and sites in violation of Mint policy, and that he
of funds from a charitable foundation and local       had downloaded approximately 1,200
businesses by using money from victims to pay         pornographic images on his computer. In
other victims, withholding bank statements, and       August 2012, the findings of the investigation


         Treasury Office of Inspector General Semiannual Report—September 2012                        26
                            Office of Investigations – Initiatives and Significant Investigations

resulted in the suspension of the Mint employee       Two Plead Guilty to Theft and Fraudulent
for 30 days.                                          Negotiation of U.S. Treasury Checks

Individual Arrested for Fraudulent Money              A joint investigation with the U.S. Secret
Orders                                                Service was initiated after FMS provided OIG
                                                      with information that two subjects potentially
In May 2012, we received information from the         stole and cashed five U.S. Treasury checks from
Doylestown Township, Pennsylvania, Police             the mail. In August 2012, the investigation
Department, alleging that an individual misused       resulted in the two individuals pleading guilty in
the Treasury name and seal to create fraudulent       federal court in Alabama to the theft and
money orders, purportedly paid through                fraudulent negotiation of the checks, which had
Treasury, which were subsequently sent via the        a total combined face value of $6,295. The two
U.S. mail to make payments on the subject’s           individuals face up to 5 years in prison.
personal accounts.
                                                      Guilty Plea to Charges of False Claims and
In July 2012, the individual was arrested for         Fraudulent Negotiation of U.S. Treasury Checks
violations of Unauthorized Acts in Writing,
Theft of Services, and Bad Checks in the              We initiated an investigation based on
Commonwealth of Pennsylvania. Criminal                information provided by FMS regarding false
proceedings are ongoing.                              claims made against the government. The
                                                      investigation determined that the subject
Abusive Telephone Caller Sentenced to                 received six U.S. Treasury checks, totaling
Probation and Fine                                    $8,146, filed claims with FMS claiming he had
                                                      not received those same checks, and was
We opened an investigation after receiving            subsequently issued six replacement checks. The
information from Treasury Departmental                investigation determined that the claims filed by
Offices regarding abusive and threatening             the subject were false.
telephone calls made to a Treasury employee.
Our investigation determined the subject made         The investigation led to the subject being
approximately 150 abusive calls to a Treasury         charged with two counts of violation of Virginia
employee. Subsequently, the subject was               criminal statute, Obtaining Money by False
charged with multiple infractions of the Arizona      Pretenses. The subject pled guilty and in April
State law.                                            2012 was sentenced to 7 months’ incarceration.
                                                      The individual was also ordered to make
In April 2012, the subject pled guilty to one         restitution to Treasury.
charge of Use of Telephone to Annoy or Harass
and was sentenced to 11 months’ unsupervised
probation and a $280 fine, and was ordered to
                                                      Following are updates to significant
have no contact with Treasury personnel or
                                                      investigative activities reported in prior
offices other than IRS.
                                                      semiannual reports.




         Treasury Office of Inspector General Semiannual Report—September 2012                        27
                            Office of Investigations – Initiatives and Significant Investigations

Twelve Arrested in Atlanta and Macon, Georgia,        Individual Sentenced for Involvement in Tax
for Theft of Treasury Checks and Tax Refund           Refund Scheme Using TreasuryDirect Accounts
Fraud
                                                      As reported in our March 2012 semiannual
As reported in our September 2011 and March           report, a joint investigation conducted with IRS
2012 semiannual reports, an investigation in          Criminal Investigations involved an individual
Atlanta and Macon led to the execution of             who used false tax returns to open BPD
multiple federal and state search and arrest          TreasuryDirect accounts to purchase U.S.
warrants in which more than 6,000 victims of          bonds. The subject of the investigation was
identity theft were identified along with an          arrested in December 2010, and was found
estimated $2.3 million in fraud against the           guilty via jury trial of violation of
government. Since reporting this information,         18 U.S.C. 1341 – Frauds and Swindles. In April
we executed 5 additional search warrants and          2012, the subject was sentenced to 10 years’
executed 5 additional arrest warrants on subjects     incarceration, and was ordered to pay
who participated in the theft and negotiation of      $1.5 million in restitution.
U.S. Treasury checks. Two subjects have pled
guilty and have been sentenced thus far.              Mint Police Officer Sentenced for Theft and Tax
                                                      Evasion
Computer Programmer Arrested for Stealing
Proprietary Code                                      As reported in our September 2011 semiannual
                                                      report, a Mint police officer pled guilty to theft,
As reported in our March 2012 semiannual              mail fraud, money laundering, and tax evasion
report, a joint investigation with the Federal        related to the theft of Presidential $1 coins with
Bureau of Investigation resulted in the arrest of     missing edge lettering and other items from a
a computer programmer for stealing proprietary        Mint facility. The stolen items were
code from the Federal Reserve Bank of New             subsequently sold to a coin distributor for
York. The individual was a contract employee          $2.4 million. In September 2012, the former
assigned to work on further developing a              Mint police officer was sentenced in a New
specific portion of the Government-wide               Jersey federal court to serve 36 months of
Accounting and Reporting Program software             incarceration, followed by 3 years of supervised
system owned by Treasury.                             release. He was also ordered to pay $15,208 in
                                                      restitution to the Mint and to forfeit
In May 2012, the individual pled guilty to one        $2.3 million in assets. Additionally, he was
count of theft of government property and one         ordered to resolve a tax liability of $801,651
count of immigration fraud. The individual            with IRS.
faces 10 years in prison and a fine of the greater
of $250,000, or twice the gross monetary gain
derived from the offense or twice the gross
monetary loss to the victims.




         Treasury Office of Inspector General Semiannual Report—September 2012                         28
Other OIG Accomplishments                             team at the request of the Director of the
                                                      Institute’s Audit, Inspection & Evaluation
and Activity                                          Academy.

                                                      Bob Taylor, Deputy Assistant Inspector
OIG Hosts Delegation from Japan
                                                      General for Performance Audits, and Kieu
In September 2012, Inspector General Eric             Rubb, Audit Director, are leading a Federal
Thorson and OIG executives met with a                 Audit Executive Council project to update the
delegation from Japan to discuss the mission of       CIGIE Audit Committee’s external peer review
U.S. Government inspectors general and the            guide. The update will incorporate changes in
Treasury OIG. Members of the delegation were          the 2011 Revision to Government Auditing
Mr. Ryo Kamimura, Deputy Director, Research           Standards. A draft of the updated guide was
and International Division, Board of Audit of         accepted by the CIGIE Audit Committee in
Japan; and Messrs. Yasuhiro Sakon, Senior             September 2012 and is to be presented for final
Research Analyst, and Sosuke Taguchi,                 approval by the CIGIE during the next
Research Analyst, Public Management and               semiannual period. Mr. Taylor and Ms. Rubb
Regional Policy Department, Mitsubishi UFJ            also served as facilitators for an August 2012
Research & Consulting Co., Ltd. Also with the         training course on the external peer review
delegation was Ms. Terumi Gale, English-              guide sponsored by the National Science
Japanese Interpreter. Treasury’s Departmental         Foundation OIG.
Offices International Visitors Program
facilitated the meeting.                              Joel Grover, Deputy Assistant Inspector
                                                      General for Financial Management and
OIG Audit Leadership Roles                            Information Technology Audits, serves as co-
                                                      chair of the Federal Audit Executive Council’s
Treasury OIG’s audit professionals serve on           Financial Statements Audit Network which
various important public and private                  develops and coordinates the council’s positions
professional organizations supporting the             on a variety of accounting and auditing issues
federal audit community. Examples of                  related to federal financial reporting.
participation in these organizations follow:          Additionally, Mr. Grover served as a co-chair of
                                                      the Maryland Association of Certified Public
Marla Freedman, Assistant Inspector General           Accountants Members in Government
for Audit, serves as co-chair of the Federal          Committee.
Audit Executive Council’s Professional
Development Committee which is actively               Jeff Dye, Audit Director, regularly taught
involved in auditor training and development          modules of the Introductory Auditor Course
matters. During the period, the Committee             sponsored by the CIGIE Training Institute.
undertook a curriculum review of the
Introductory Auditor Course offered by the            Senior Special Agent Detailed to Congressional
Council of Inspectors General on Integrity and        Cybersecurity Staff
Efficiency (CIGIE) Training Institute. The
review is being performed by an interagency           An Office of Investigations Senior Special
                                                      Agent is currently serving on a detail to the

         Treasury Office of Inspector General Semiannual Report—September 2012                        29
                                                      Other OIG Accomplishments and Activity

Surveys and Investigations staff of the House of         Ken O’Laughlin, John Rizek, Abdil Salah,
Representatives Committee on Appropriations.             Loren Sciurba, Sonja Scott, Greg Sullivan,
Surveys and Investigations personnel perform                         Sharon Torosian
studies, jointly commissioned by the majority
and minority parties, that involve quantitative            Intra-Component Teamwork Award
and qualitative analysis of budgetary, technical,
and operational data; meetings and briefings             SBLF Investment Decision Audit Team
with Executive Branch senior executives and                Lisa DeAngelis, Audrey Delaney, and
military officers; and briefings to the Committee                 Elizabeth MacDonald
staff. The Senior Special Agent is supporting
classified studies regarding cloud computing and                TNET IT Audit Team
cyber warfare.                                        Kathy Johnson, Larissa Klimpel, Kevin Mfume,
                                                                     and Abdil Salah
The Second Annual Treasury OIG Awards
                                                           Inter-Component Teamwork Award
On May 2, 2012, Treasury OIG held the second
annual awards program in the Cash Room of                       SSBCI Definitions Team
Main Treasury. The program recognized the                     Felicia Battista and Rich Delmar
achievements and outstanding performance of
OIG staff during the calendar year 2011.                   BEP’s NexGen $100 Note Security
Presented were 12 Individual Achievement                   Theresa Cameron, Deborah Harker,
Awards, 4 Teamwork Awards, 8 Customer                  Jerome Marshall, Kieu Rubb, Sonja Scott, and
Service Awards to 10 individuals, and 3 Rookie                        Greg Sullivan
Awards. Also awarded was the Inspector
General Leadership Award, the highest honor                      Customer Service Award
bestowed to an OIG employee.
                                                                Mission Support Branch
Inspector General Eric Thorson presented                     Angel Kennon, Nicole Graves, and
awards to the following recipients:                                   Sean McCaney

    Inspector General Leadership Award                    Individual Customer Service Awards
                                                               Linda Anderson, Diane Baker,
                  Tricia Hollis                              Dawn Buckingham, John Cooper,
                                                       Nicolas Harrison, Jay Koehler, and Mark Levitt
                Rookie Award

     Kathryn Bustell, Andrew Morgan, and
              Ebonique Poteat

       Individual Achievement Award

 Susan Barron, John Gauthier, James Howell,
       Larissa Klimpel, Jason Metrick,

         Treasury Office of Inspector General Semiannual Report—September 2012                        30
Statistical Summary
Summary of OIG Activity
For the 6 months ended September 30, 2012

                                                                                     Number or
OIG Activity                                                                         Dollar Value
Office of Counsel Activity
Regulation and legislation reviews                                                                  3
Instances where information was refused                                                             0
Office of Audit Activities
Reports issued and other products                                                                  33
Disputed audit recommendations                                                                      0
Significant revised management decisions                                                            0
Management decision in which the IG disagrees                                                       0
Monetary benefits (audit)
Questioned costs                                                                                 $746
Funds put to better use                                                                             0
Revenue enhancements                                                                                0
Total monetary benefits                                                                          $746

Office of Small Business Lending Fund Program Oversight Activities
Reports issued and other products                                                                   4
Disputed audit recommendations                                                                      0
Significant revised management decisions                                                            0
Management decision in which the IG disagrees                                                       0
Monetary benefits (audit)
Questioned costs                                                                             $164,414
Funds put to better use                                                                     $2,863,250
Revenue enhancements                                                                                0
Total monetary benefits                                                                     $3,027,664

Office of Investigations Activities
Criminal and judicial actions (including joint investigations)
Cases referred for prosecution and/or litigation                                                   61
Cases accepted for prosecution and/or litigation                                                   28
Arrests                                                                                            12
Indictments/informations                                                                            5
Convictions (by trial and plea)                                                                    15




             Treasury Office of Inspector General Semiannual Report—September 2012                  31
                                                                                  Statistical Summary

Significant Unimplemented Recommendations
For reports issued prior to October 1, 2011

The following list of OIG audit reports with unimplemented recommendations is based on information
in Treasury’s automated audit recommendation tracking system, which is maintained by Treasury
management officials.

Number            Date     Report Title and Recommendation Summary
OIG-06-030        05/06    Terrorist Financing/Money Laundering: FinCEN Has Taken Steps to Better Analyze
                           Bank Secrecy Act Data but Challenges Remain
                           FinCEN should enhance the current FinCEN database system or acquire a
                           new system. An improved system should provide for complete and accurate
                           information on the case type, status, resources, and time expended in
                           performing the analysis. This system should also have the proper security
                           controls to maintain integrity of the data. (1 recommendation)


OIG-10-035        2/10     Management Letter for Fiscal Year 2009 Audit of the Department of the Treasury
                           Financial Statements
                           The Chief Information Officer, with input from the Office of the Deputy
                           Chief Financial Officer, should implement the use of Secure Sockets Layer
                           for the Treasury Department’s Information Executive Repository and
                           CFO Vision applications. (1 recommendation)


OIG-11-036        11/10    Information Technology: Treasury is Generally in Compliance with Executive Order
                           13103
                           The Chief Information Officer should (1) revise Treasury Directive (TD)
                           85-02 to (a) define authorized software more specifically, (b) require heads
                           of bureaus and offices to ensure that software in their inventory is on the
                           Treasury list of authorized software and remove it if it is not, (c) require the
                           Chief Information Officer to perform periodic audit checks to determine if
                           the bureaus and offices are only using software on the Treasury list of
                           authorized software, and (d) require the bureaus and offices to reconcile
                           their inventory with software license agreements rather than with software
                           purchases; (2) develop procedures to create and manage a list of approved
                           enterprise authorized software; (3) ensure that bureaus remove unauthorized
                           software from Treasury systems; (4) establish and implement department-
                           wide procedures for auditing and tracking software licenses; and


         Treasury Office of Inspector General Semiannual Report—September 2012                          32
                                                                                      Statistical Summary

                             (5) complete deployment of the software management tool.
                             (5 recommendations)


OIG-11-057         1/11      The Failed and Costly BSA Direct R&S System Development Effort Provides
                             Important Lessons for FinCEN’s BSA Modernization Project
                             FinCEN should ensure that adequate contract and financial records are
                             maintained for the current BSA modernization projects to allow for audit as
                             well as accurate reporting to FinCEN management, Treasury’s Office of the
                             Chief Information Officer, and the Congress. (1 recommendation)


OIG-11-068         5/11      Improved Security Over the NexGen $100 Notes Is Necessary
                             The Director of the Bureau of Engraving and Printing should evaluate the
                             policy and practices to retain video and digital recordings at the Eastern
                             Currency Facility and the Western Currency Facility in light of the
                             potentially long-term storage needs of the NexGen $100 finished notes and
                             work-in-process sheets.



Summary of Instances Where Information Was Refused
April 1, 2012, through September 30, 2012

In our last semiannual report, we reported that we were being denied the assistance and cooperation of a
federal banking regulator in connection with our audit responsibilities. Specifically, FRB had denied us access
to information needed for the audit of Treasury’s SBLF investment and withdrawal decisions. As part of its
mandated oversight responsibilities for the SBLF program, we requested bank examinations from FRB to
help it determine whether the regulator had fully disclosed all relevant supervisory information for FRB-
regulated institutions seeking SBLF funding. The requested information was to be used for an audit ongoing
at the time of late-entry institutions into the SBLF program. In response to our initial audit request, and
citing 12 C.F.R. § 261.21(d), FRB stated that we had not demonstrated the requisite need for FRB to disclose
confidential supervisory information. However, FRB responded to a second request, providing the
information we sought, but after the audit had been concluded and a final report was issued. Although our
inability to obtain the examination reports timely created a scope limitation for this audit, we determined that
the matter has been resolved.




         Treasury Office of Inspector General Semiannual Report—September 2012                               33
                                                                                              Statistical Summary

Listing of Audit Products Issued
April 1, 2012, through September 30, 2012

Office of Audit

Financial Audits and Attestation Engagements
Report on the Bureau of the Public Debt Administrative Resource Center’s Description of its Financial Management
Services and the Suitability of the Design and Operating Effectiveness of its Controls for the Period July 1, 2011 to
June 30, 2012, OIG-12-068, 8/17/2012

Report on the Bureau of the Public Debt Federal Investments Branch’s Description of its Investment/Redemption Services
and the Suitability of the Design and Operating Effectiveness of its Controls for the Period August 1, 2011 to July 31,
2012, OIG-12-073, 9/19/2012

Report on the Bureau of the Public Debt Trust Funds Management Branch’s Description of its Trust Funds Management
Processing Services and the Suitability of the Design and Operating Effectiveness of its Controls for the Period August 1,
2011 to July 31, 2012, OIG-12-074, 9/19/2012

Information Technology Audits and Evaluations
Information Technology: Financial Management Service Successfully Demonstrated Recovery Capability for Treasury Web
Application Infrastructure, OIG-12-052, 5/11/2012

Information Technology: Fiscal Year 2012 Audit of Treasury’s FISMA Implementation for Intelligence Systems,
OIG-12-072, 9/12/2012, (Classified Report)

Information Technology: Treasury’s Security Management of TNet Needs Improvement, OIG-12-076, 9/27/2012

Information Technology: Sufficient Protections Were in Place for Departmental Offices’ Network and Systems,
OIG-12-078, 9/14/2012

Performance Audits – Material Loss and In-depth Reviews of Failed Banks
Safety and Soundness: Material Loss Review of Integra Bank, National Association, OIG-12-050, 4/12/2012

Safety and Soundness: In-Depth Review of the First National Bank of Davis, Davis, Oklahoma, OIG-12-055,
6/7/2012

Performance Audits – Reviews of Failed Banks Pursuant to Section 987 of the Dodd-
Frank Act
Safety and Soundness: Failed Bank Review of Western National Bank, OIG-12-049, 4/5/2012


          Treasury Office of Inspector General Semiannual Report—September 2012                                         34
                                                                                         Statistical Summary

Safety and Soundness: Failed Bank Review of SCB Bank, OIG-12-051, 5/9/2012

Safety and Soundness: Failed Bank Review of American Eagle Savings Bank, OIG-12-053, 5/24/2012

Safety and Soundness: Failed Bank Review of Home Savings of America, Little Falls, Minnesota, OIG-12-056,
6/18/2012

Safety and Soundness: Failed Bank Review of Fort Lee, Federal Savings Bank, OIG-12-058, 7/12/2012

Safety and Soundness: Failed Bank Review of Charter National Bank and Trust, Hoffman Estates, Illinois,
OIG-12-059, 7/20/2012

Safety and Soundness: Failed Bank Review of Plantation Federal Bank, OIG-12-060, 7/26/2012

Safety and Soundness: Failed Bank Review of Security Bank, National Association, North Lauderdale, Florida,
OIG-12-066, 8/7/2012

Safety and Soundness: Failed Bank Review of Carolina Federal Savings Bank, Charleston, South Carolina,
OIG-12-067, 8/7/2012

Other Performance Audits
Consultation on Solyndra Loan Guarantee Was Rushed, OIG-12-048, 4/3/2012

Safety and Soundness: OCC’s Supervision of National Bank’s Foreclosure Practices, OIG-12-054, 5/31/2012

Dodd-Frank Act: Treasury Has Made Progress to Stand-up the Office of Financial Research, OIG-12-057,
6/27/2012

Treasury’s Financial Agent Selection Process for the Agency Mortgage Backed Securities Purchase Program Was Not
Fully Documented, OIG-12-061, 7/31/2012

Recovery Act: Audit of Panther Creek Wind Farm III Payment Under 1603 Program, OIG-12-062, 8/1/2012,
$746 Questioned Cost

Recovery Act: Audit of Grand Ridge Energy II LLC Payment Under 1603 Program, OIG-12-063, 8/2/2012

Recovery Act: Audit of Grand Ridge Energy III LLC Payment Under 1603 Program, OIG-12-064, 8/2/2012

Recovery Act: The Community Development Financial Institutions Fund Should Revise Policies and Procedures to Clarify
Eligibility Reviews Under the New Markets Tax Credit Program, OIG-12-065, 8/3/2012

Recovery Act: Audit of Moraine Wind II LLC Payment Under 1603 Program, OIG-12-069, 8/23/2012




          Treasury Office of Inspector General Semiannual Report—September 2012                                   35
                                                                                              Statistical Summary

Safety and Soundness: Review of OCC Community Bank Examination and Appeals Processes, OIG-12-070,
8/31/2012

Government-wide Financial Management: The Financial Management Service Implemented Corrective Actions for Private
Collection Agencies, OIG-12-071, 9/10/2012

Status of the Transfer of Office of Thrift Supervision Functions, OIG-12-075, 9/26/2012

Terrorist Financing/Money Laundering: FinCEN’s BSA IT Modernization Program is Meeting Milestones, But
Oversight Remains Crucial, OIG-12-077, 9/27/2012

Other Products
Audit of the Financial Stability Oversight Council’s Controls Over Non-public Information, Report to the Financial
Stability Oversight Council and the Congress, June 2012, 6/22/2012

Response to Senator Orrin G. Hatch’s Inquiries Regarding the Council of Inspectors General on Financial Oversight’s
Review of the Debt Limit, OIG-CA-12-006, 8/24/2012

Office of SBLF Program Oversight
State Small Business Credit Initiative: California Needs to Improve Its Oversight of Programs Participating in the State
Small Business Credit Initiative, OIG-SBLF-12-003, 5/24/2012 $133,250 Funds Put to Better Use,
$160,988 Questioned Cost

Small Business Lending Fund: Soundness of Investment Decisions Regarding Later-Entry, Withdrawn and Reconsidered
Institutions in the SBLF Program, OIG-SBLF-12-004, 7/3/2012

Small Business Lending Fund: Initial Dividend Rate Calculations Used Incorrect Lending Information,
OIG-SBLF-12-005, 8/21/2012

State Small Business Credit Initiative: Montana’s Use of Funds Received from the State Small Business Credit Initiative,
OIG-SBLF-12-006, 9/27/2012 $2,730,000 Funds Put to Better Use, $3,426 Questioned Cost




          Treasury Office of Inspector General Semiannual Report—September 2012                                        36
                                                                                                                              Statistical Summary

Audit Reports Issued With Questioned Costs
April 1, 2012, through September 30, 2012

                                                                                              Total                Total                 Total
                                                                                              No. of               Questioned            Unsupported
Category                                                                                      Reports              Costs                 Costs
For which no management decision had been made by beginning of reporting
period                                                                                                     1             $2,080,452                                0
Which were issued during the reporting period                                                              3               $165,160                                0
  Subtotals                                                                                                4             $2,245,612                                0
For which a management decision was made during the reporting period                                       1             $2,080,452                                0
  Dollar value of disallowed costs                                                                         1               $284,827                                0
  Dollar value of costs not disallowed                                                                     1             $1,795,625                                0
For which no management decision was made by the end of the reporting period                               3               $165,160                                0
For which no management decision was made within 6 months of issuance                                      0                      0                                0




Audit Reports Issued With Recommendations That Funds Be Put to Better
Use
April 1, 2012, through September 30, 2012

                                                                            Total
                                                                            No. of                                                     Revenue
Category                                                                    Reports            Total                Savings            Enhancement
For which no management decision had been made by beginning
of reporting period                                                                       0                 0                   0                                  0
Which were issued during the reporting period                                             2        $2,863,250          $2,863,250                                  0
   Subtotals                                                                              2        $2,863,250          $2,863,250                                  0
For which a management decision was made during the reporting
period                                                                                    0                    0                  0                                0
   Dollar value of recommendations agreed to by management                                0                    0                  0                                0
        Dollar value based on proposed management action                                  0                    0                  0                                0
        Dollar value based on proposed legislative action                                 0                    0                  0                                0
   Dollar value of recommendations not agreed to by
   management                                                                             0                    0                  0                                0
For which no management decision was made by the end of the
reporting period                                                                          2        $2,863,250          $2,863,250                                  0
For which no management decision was made within 6 months of
issuance                                                                                  0                    0                  0                                0
A recommendation that funds be put to better use denotes funds could be used more efficiently if management took actions to implement and complete the
recommendation including: (1) reduction in outlays, (2) de-obligations of funds from programs or operations, (3) costs not incurred by implementing recommended
improvements related to operations, (4) avoidance of unnecessary expenditures noted in pre-award review of contract agreements, (5) any other savings which are
specifically identified, or (6) enhancements to revenues of the federal government..




              Treasury Office of Inspector General Semiannual Report—September 2012                                                                               37
                                                                                 Statistical Summary

Previously Issued Audit Reports Pending Management Decisions (Over
6 Months)
There are no previously issued audit reports pending management decisions for the reporting period.



Significant Revised Management Decisions
April 1, 2012, through September 30, 2012

There were no significant revised management decisions during the period.



Significant Disagreed Management Decisions
April 1, 2012, through September 30, 2012

There were no management decisions this period with which the IG was in disagreement.



Peer Reviews
April 1, 2012, through September 30, 2012

Office of Audit and Office of SBLF Program Oversight

Audit organizations that perform audits and attestation engagements of federal government programs
and operations are required by Government Auditing Standards to undergo an external peer review every
3 years. The objectives of an external peer review are to determine, during the period under review,
whether, the audit organization’s system of quality control was suitably designed and whether the audit
organization was complying with its quality control system in order to provide the audit organization
with reasonable assurance that it was conforming to applicable professional standards.

During this semiannual period, the U.S. Agency for International Development OIG conducted an
external peer review of Treasury OIG’s Office of Audit and Office of SBLF Program Oversight that
covered year ended March 31, 2012. Treasury OIG received a “pass” rating. The external peer review did
not identify any recommendations. The peer review report may be viewed on the Treasury OIG website
at

                          http://www.treasury.gov/about/organizational-
       structure/ig/Audit%20Reports%20and%20Testimonies/TOIG%20Peer%20Review.pdf



         Treasury Office of Inspector General Semiannual Report—September 2012                        38
                                                                                  Statistical Summary

At the end of the semiannual period, we were conducting an external peer review of the Department of
Education OIG’s audit organization.

Office of Investigations

CIGIE mandates that the investigative law enforcement operations of all OIGs undergo peer reviews
every 3 years in order to ensure compliance with (1) the council’s investigations quality standards and
with (2) the relevant guidelines established by the Office of the Attorney General for the United States.

Our Office of Investigations was not the subject of a CIGIE peer review during this reporting period.
However, during this period, our OIG conducted a CIGIE peer review of the investigative operations at
the Department of Transportation’s (DOT) OIG. The final report was released in September and we
reported that the system of internal safeguards and management procedures for DOT OIG’s
investigative functions were in compliance with quality standards established by CIGIE and Attorney
General Guidelines. These safeguards and procedures provide reasonable assurance that DOT OIG
conforms to professional standards in the conduct of its investigations.




         Treasury Office of Inspector General Semiannual Report—September 2012                          39
  Bank Failures and Nonmaterial Loss Reviews
  We conducted reviews of 7 failed banks supervised by OCC with losses to the DIF that did not meet
  the definition of a material loss in FDIA. These reviews were performed to fulfill the requirements
  found in 12 U.S.C. § 1831o(k). The term “material” loss which, in turn, triggers an MLR be performed
  is, for 2012 and 2013, a loss to the DIF that exceeds $150 million; and, for 2014 going forward, a loss to
  the DIF that exceeds $50 million (with provisions to increase that trigger to a loss that exceeds
  $75 million under certain circumstances).

  For losses that are not material, FDIA requires that each 6-month period, the OIG of the federal
  banking agency must (1) identify the estimated losses that have been incurred by the DIF during that
  6-month period and (2) determine the grounds identified by the failed institution’s regulator for
  appointing the FDIC as receiver, and whether any unusual circumstances exist that might warrant an in-
  depth review of the loss. For each 6-month period, we are also required to prepare a report to the failed
  institutions’ regulator and the Congress that identifies (1) any loss that warrants an in-depth review,
  together with the reasons why such a review is warranted and when the review will be completed; and
  (2) any losses where we determine no in-depth review is warranted, together with an explanation of how
  we came to that determination. The table below fulfills this reporting requirement to the Congress for
  the 6-month period ended September 30, 2012. We issue separate audit reports on each review to OCC.

Bank Failures and Non Material Loss Reviews
                                                                                                          Reason/
                                                                                                          Anticipated
                                 Date Closed/     OIG Summary of                          In-Depth        Completion Date of
                                 Loss to the      Regulator’s Grounds                     Review          the In-Depth
Bank Name/Location               DIF              for Receivership                        Determination   Review
Fort Lee Federal Savings Bank    April 20, 2012   • Dissipation of assets or earnings     No              No unusual circumstances noted
Fort Lee, New Jersey             $14 million        due to unsafe and unsound
                                                    practices
                                                  • Capital impaired
                                                  • Failed to submit acceptable capital
                                                    restoration plan
Plantation Federal Bank          April 27, 2012   • Dissipation of assets or earnings     No              No unusual circumstances noted
Pawleys Island, South Carolina   $76 million        due to unsafe and unsound
                                                    practices
                                                  • Capital impaired
Inter Savings Bank, FSB          April 27, 2012   • Dissipation of assets or earnings     No              No unusual circumstances noted
Maple Grove, Minnesota           $119.2 million     due to unsafe and unsound
                                                    practices
                                                  • Capital impaired
Palm Desert National Bank        April 27, 2012   • Dissipation of assets or earnings     No              No unusual circumstances noted
Palm Desert, California          $23.4 million      due to unsafe and unsound
                                                    practices
                                                  • Capital impaired
                                                  • Unsafe and unsound practices
                                                    were likely to seriously prejudice
                                                    the interests of the DIF
Security Bank                    May 4, 2012      • Dissipation of assets or earnings     No              No unusual circumstances noted
North Fort Lauderdale, Florida   $13.7 million      due to unsafe and unsound
                                                    practices
                                                  • Capital impaired




                Treasury Office of Inspector General Semiannual Report—September 2012                                                40
                                                                  Bank Failures and Nonmaterial Loss Reviews

Bank Failures and Non Material Loss Reviews

                                                                                                        Reason/
                                                                                                        Anticipated
                                Date Closed/    OIG Summary of                          In-Depth        Completion Date of
                                Loss to the     Regulator’s Grounds                     Review          the In-Depth
Bank Name/Location              DIF             for Receivership                        Determination   Review
Alabama Trust Bank              May 18, 2012    • Dissipation of assets or earnings     No              No unusual circumstances
Sylacauga, Alabama              $11.4 million     due to unsafe and unsound                             noted. However, our review
                                                  practices                                             revealed certain questionable
                                                • Capital impaired                                      activity by Alabama Trust Bank
                                                                                                        management that was referred
                                                                                                        by our auditors to the OIG Office
                                                                                                        of Investigations.
Carolina Federal Savings Bank   June 8, 2012    • Dissipation of assets or earnings     No              No unusual circumstances noted
Charleston, South Carolina      $17.1 million     due to unsafe and unsound
                                                  practices
                                                • Capital impaired
                                                • Failed to submit acceptable capital
                                                  restoration plan
Second Federal Savings & Loan   July 22, 2012   • Dissipation of assets or earnings     Yes             Unusual circumstances
Association of Chicago          $76.9 million     due to unsafe and unsound                             identified; estimated completion
Chicago, Illinois                                 practices                                             date is September 2013
                                                • Capital impaired
                                                • Failed to submit acceptable capital
                                                  restoration plan




               Treasury Office of Inspector General Semiannual Report—September 2012                                                 41
References to the Inspector General Act
                                                              Requirement                                                        Page
Section 4(a)(2)     Review of legislation and regulations                                                                             31
Section 5(a)(1)     Significant problems, abuses, and deficiencies                                                                  7-28
Section 5(a)(2)     Recommendations with respect to significant problems, abuses, and deficiencies                                  7-28
Section 5(a)(3)     Significant unimplemented recommendations described in previous semiannual reports                             32-33
Section 5(a)(4)     Matters referred to prosecutive authorities                                                                       31
Section 5(a)(5)     Summary of instances where information was refused                                                                33
Section 5(a)(6)     List of audit reports                                                                                          34-36
Section 5(a)(7)     Summary of significant reports                                                                                  7-28
Section 5(a)(8)     Audit reports with questioned costs                                                                               37
Section 5(a)(9)     Recommendations that funds be put to better use                                                                   37
Section 5(a)(10)    Summary of audit reports issued before the beginning of the reporting period for which no management              38
                    decision had been made
Section 5(a)(11)    Significant revised management decisions made during the reporting period                                         38
Section 5(a)(12)    Management decisions with which the IG is in disagreement                                                         38
Section 5(a)(13)    Instances of unresolved FFMIA noncompliance                                                                       21
Section 5(a)(14)    Results of peer reviews conducted of Treasury OIG by another OIG                                               38-39
Section 5(a)(15)    List of outstanding recommendations from peer reviews                                                          38-39
Section 5(a)(16)    List of peer reviews conducted by Treasury OIG, including a list of outstanding recommendations from those     38-39
                    peer reviews
Section 5(d)        Serious or flagrant problems, abuses, or deficiencies                                                           N/A
Section 6(b)(2)     Report to Secretary when information or assistance is unreasonably refused                                       33




             Treasury Office of Inspector General Semiannual Report—September 2012                                                      42
Abbreviations
BEP            Bureau of Engraving and Printing
BPD            Bureau of the Public Debt
BSA            Bank Secrecy Act
BSA IT Mod     BSA IT Modernization
CDFI           Community Development Financial Institutions
CIGFO          Council of Inspectors General on Financial Oversight
CIGIE          Council of the Inspectors General on Integrity and Efficiency
DIF            Deposit Insurance Fund
Dodd-Frank     Dodd-Frank Wall Street Reform and Consumer Protection Act
DOE            Department of Energy
EESA           Emergency Economic Stabilization Act
Fannie Mae     Federal National Mortgage Association
FDIA           Federal Deposit Insurance Act
FDIC           Federal Deposit Insurance Corporation
FIO            Federal Insurance Office
FinCEN         Financial Crimes Enforcement Network
FISMA          Federal Information Security Management Act
FMS            Financial Management Service
FRB            Board of Governors of the Federal Reserve System
Freddie Mac    Federal Home Loan Mortgage Corporation
FSOC           Financial Stability Oversight Council
HERA           Housing and Economic Recovery Act
IRS            Internal Revenue Service
IT             information technology
KPMG           KPMG LLP
MLR            material loss review
MBS            mortgage backed securities
OCC            Office of the Comptroller of the Currency
OFAC           Office of Foreign Assets Control
OFR            Office of Financial Research
OIG            Office of Inspector General
OTS            Office of Thrift Supervision
Plan           Joint Implementation Plan
Recovery Act   American Recovery and Reinvestment Act of 2009
SBLF           Small Business Lending Fund
Solyndra       Solyndra, LLC
SSBCI          State Small Business Credit Initiative
TARP           Troubled Asset Relief Program
TNet           Treasury Network


        Treasury Office of Inspector General Semiannual Report—September 2012   43
This page intentionally left blank.
Statue of Alexander Hamilton, 1st Secretary of the Treasury (1789 to 1795)
        South side of the Treasury Building in Washington, D.C.
 contact us
Office of Inspector General
1500 Pennsylvania Avenue, N.W.
Room 4436
Washington, D.C. 20220
Phone: (202) 622-1090;
Fax: (202) 622-2151

Office of Small Business Lending
Fund Program Oversight
1425 New York Avenue, Suite 5041
Washington, D.C. 20220
Phone: (202) 622-1090;
 Fax: (202) 927-5421

Office of Audit
740 15th Street, N.W., Suite 600
Washington, D.C. 20220
Phone: (202) 927-5400;
Fax: (202) 927-5379

Office of Investigations
1425 New York Avenue, Suite 5041
Washington, D.C. 20220
Phone: (202) 927-5260;
Fax: (202) 927-5421

Office of Counsel
740 15th Street, N.W., Suite 510
                                   Treasury OIG Hotline
Washington, D.C. 20220             Call Toll Free: 1.800.359.3898
Phone: (202) 927-0650;
Fax: (202) 927-5418
                                   Treasury OIG Web Page
Office of Management
740 15th Street, N.W., Suite 510
Washington, D.C. 20220             OIG reports and other information are now available via the
Phone: (202) 927-5200;             Internet. The address is
Fax: (202) 927-6492
                                   http://www.treasury.gov/about/organizational-
                                   structure/ig/Pages/default.aspx
Boston Audit Office
408 Atlantic Avenue, Room 330
Boston, Massachusetts 02110-3350
Phone: (617) 223-8640;
Fax: (617) 223-8651
